<html>
<title> - H.R. 1796, THE RESIDENTIAL CARBON MONOXIDE POISONING PREVENTION ACT, AND H.R. 4805, THE FORMALDEHYDE STANDARDS FOR COMPOSITE WOOD PRODUCTS ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 H.R. 1796, THE RESIDENTIAL CARBON MONOXIDE POISONING PREVENTION ACT, 
 AND H.R. 4805, THE FORMALDEHYDE STANDARDS FOR COMPOSITE WOOD PRODUCTS 
                                  ACT

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2010

                               __________

                           Serial No. 111-106


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
76-018                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98ffe8f7d8fbedebecf0fdf4e8b6fbf7f5b6">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JANICE D. SCHAKOWSKY, Illinois       CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN SARBANES, Maryland              RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   ED WHITFIELD, Kentucky
FRANK PALLONE, New Jersey            GEORGE RADANOVICH, California
BART GORDON, Tennessee               JOSEPH R. PITTS, Pennsylvania
BART STUPAK, Michigan                MARY BONO MACK, California
GENE GREEN, Texas                    LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina
JOHN BARROW, Georgia
DORIS O. MATSUI, California
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE L. BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     2
Hon. Jim Matheson, a Representative in Congress from the State of 
  Utah, opening statement........................................     3
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................     4
    Prepared statement...........................................     5
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................     6
Hon. Betty Sutton, a Representative in Congress from the State of 
  Ohio, opening statement........................................     8
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     8
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................     9
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    87

                               Witnesses

Robert J. Howell, Jr., Assistant Executive Director, Office of 
  Hazard Identification and Reduction, U.S. Consumer Product 
  Safety Commission..............................................    10
    Prepared statement...........................................    13
Eric Lavonas, M.D., Associate Director, Rocky Mountain Poison and 
  Drug Center, Emergency Physician, Denver Health Medical Center.    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................    91
John Andres, Director of Engineering, Kidde Residential and 
  Commercial Division............................................    25
    Prepared statement...........................................    27
    Answers to submitted questions...............................    95
Mark Devine, Vice President of Marketing, First Alert............    32
    Prepared statement...........................................    34
James J. Jones, Deputy Assistant Administrator, Office of 
  Prevention, Pesticides, and Toxic Substances, U.S. 
  Environmental Protection Agency................................    45
    Prepared statement...........................................    48
Tom Julia, President, the Composite Panel Association............    53
    Prepared statement...........................................    55
    Answers to submitted questions...............................    97
Andy Counts, CEO, American Home Furnishings Alliance.............    61
    Prepared statement...........................................    63
    Answers to submitted questions...............................   102
Don Ryan, Sierra Club, Founding Board Member, The National Center 
  for Healthy Housing............................................    65
    Prepared statement...........................................    67
Melvin E. Andersen, CIH, PH.D., DABT, Director, Program in 
  Chemical Safety Sciences, The Hamner Institutes for Health 
  Sciences.......................................................    70
    Prepared statement...........................................    72
    Answers to submitted questions...............................   105


 H.R. 1796, THE RESIDENTIAL CARBON MONOXIDE POISONING PREVENTION ACT, 
 AND H.R. 4805, THE FORMALDEHYDE STANDARDS FOR COMPOSITE WOOD PRODUCTS 
                                  ACT

                              ----------                              


                        THURSDAY, MARCH 18, 2010

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2322 of the Rayburn House Office Building, Hon. Bobby L. 
Rush [Chairman of the Subcommittee] presiding.
    Members present: Representatives Rush, Schakowsky, Sutton, 
Matheson, Barrow, Matsui, Castor, DeGette, Radanovich, 
Whitfield, Terry, Gingrey and Scalise.
    Staff present: Michelle Ash, Chief Counsel; Robin 
Appleberry, Counsel; Timothy Robinson, Counsel; David Kohn, 
Press Secretary; Will Cusey, Special Assistant; Daniel Hekier, 
Intern; Brian McCullough, Minority Senior Professional Staff; 
Jerry Couri, Minority Professional Staff; Shannon Weinberg, 
Minority Counsel; Robert Frisby, FTC Detailee; and Samuel 
Costello, Minority Legislative Analyst.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The subcommittee will come to order.
    The Chair wants to thank all the members and the witnesses 
on both panels for your participation in this hearing this 
morning. This subcommittee is here on H.R. 1796, the 
Residential Carbon Monoxide Poisoning Prevention Act, and also 
H.R. 4805, the Formaldehyde Standards of Composite Wood 
Products Act. The Chair recognizes himself for 5 minutes for 
the purposes of an opening statement.
    The subcommittee is holding today's hearing on two 
introduced bills that would protect scores of consumers from 
highly dangerous and lethal carbon monoxide and formaldehyde 
emissions. The first bill we will take up, H.R. 1796, the 
Residential Carbon Monoxide Poisoning Prevention Act, was 
introduced by Mr. Matheson of Utah. The Consumer Product Safety 
Commission reports that carbon monoxide poisoning is the 
leading cause of poisoning deaths in the United States. Carbon 
monoxide poisoning claims the lives of over 400 people each 
year, hospitalizing another 4,000 individuals and it causes 
20,000 individuals to seek emergency medical treatment. H.R. 
1796 would amend the Consumer Product Safety Act to require 
that residential carbon monoxide detectors meet current 
voluntary safety standards. Warning labels would have to be 
placed on portable generators advising consumers that they 
should not be used inside residential and dwelling units. And 
H.R. 1796 would authorize the Consumer Product Safety 
Commission to establish a grant program to assist the States in 
training fire code enforcement officials and educating the 
public about carbon monoxide risks and the proper use of carbon 
monoxide detectors.
    Through these simple actions, H.R. 1796 will enable 
consumers to better protect themselves against carbon monoxide 
exposure and poisoning, and I want to take this time to commend 
Mr. Matheson for his tireless work to prevent these outcomes, 
many of which are avoidable, and I look forward to hearing from 
our first panel of witnesses and our ensuing discussion on this 
important bill and this important matter.
    The second bill before us is H.R. 4805, the Formaldehyde 
Standards of Composite Wood Products Act. This legislation will 
achieve two very important goals: protecting American consumers 
and protecting American jobs. H.R. 4805 will amend the Toxic 
Substances Control Act by establishing a federal standard based 
on requirements already set by the State of California to limit 
the amount of formaldehyde that can be emitted from composite 
wood products. Because this standard will apply nationally, the 
legislation will result in greater protection for all 
Americans. It will also ensure that we do not have a repeat of 
the disaster with FEMA trailers that were used for emergency 
housing following Hurricane Katrina, which I might remind all 
of us, the thousands sick unnecessarily, and it would make all 
of our consumers much safer.
    Mrs. Matsui's proposed legislation will level the playing 
field for American manufacturers. Currently, importers do not 
have to meet these standards except to the extent that they 
conduct business in California. As a result, badly needed 
manufacturing jobs are going overseas and American consumers 
are less safe. And I want to again take this moment to applaud 
my colleague from the State of California, Mrs. Matsui, for 
championing this legislation and working hard on this 
legislation and ensuring that we are doing everything that we 
can for both consumers and businesses.
    With that, I yield back the balance of my time and 
recognize the ranking member, Mr. Whitfield, for 5 minutes for 
the purposes of an opening statement.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Well, thank you, Chairman, and I certainly 
want to welcome all the witnesses today. We do look forward to 
your testimony, your expert testimony on both of these bills, 
and I certainly want to thank Mrs. Matsui for her bringing to 
our attention the formaldehyde issue with her legislation, H.R. 
4805, which is the Formaldehyde Standards for Composite Wood 
Products Act.
    I don't think there is any question that all of us 
recognize the concerns with formaldehyde, and the purpose of 
these hearings of course is to bring out issues that are of 
concern to us, and one of the concerns that I have about this 
particular bill, which does not mean I am opposed to it in any 
way, but it does not write an actual standard into law and it 
does not direct the scientists at EPA to investigate this 
matter. Instead, it explicitly cites a State regulation that 
was adopted in California and it refers to the California 
provision. The California regulation has not been fully phased 
in yet. We cannot get a complete picture of any incremental 
improvements in public health or how smoothly businesses 
subjected to it have transitioned and whether consumers, 
particularly low-income Americans, have been able to have 
access to affordable products. On top of those concerns but no 
less importantly, I do always have a concern when we set a 
federal standard that there is not federal preemption, and I 
know that one of the witnesses, I believe maybe it was Mr. Tom 
Julia, although I am not 100 percent certain, expressed concern 
about their only concern about trying to push for federal 
preemption was that it might slow down this process. So I think 
that is a couple of issues that we can explore today in this 
hearing.
    And then I certainly want to thank Mr. Matheson for H.R. 
1796, the Carbon Monoxide Poisoning Prevention Act, which we 
also recognize is a real problem. I suppose that one issue that 
we will want to explore in this hearing as well relates to 
right now I guess about 25 States have voluntary standards on 
this issue and I believe this legislation makes it mandatory, 
and it is my understanding the Consumer Product Safety Act that 
the Commission can invoke a mandatory standard but it has to be 
under certain conditions and whether or not those are met in 
this situation, I am not sure.
    One other concern that I have, particularly with our 
current financial situation in America with a $14 trillion debt 
is starting a new grant program, and I don't remember precisely 
how much money is authorized for this per year but my 
recollection was maybe it is a couple of million a year, but 
those are issues that you all are going to help us address and 
so I want to thank you for being here, Mr. Chairman, and we 
look forward to their testimony today.
    Mr. Rush. The Chair recognizes the gentleman from Utah, the 
author of the bill that is currently under consideration, Mr. 
Matheson, for 2 minutes for the purpose of opening statements.

  OPENING STATEMENT OF HON. JIM MATHESON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Matheson. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I do look forward to hearing from the 
witnesses and look forward to hearing from my colleagues 
because that is the purpose of these legislative hearings. We 
try to look to work together to build more consensus, and I am 
certainly not wedding to the specific text of the initial draft 
of the bill. I think that is why we are here today is to learn 
and improve on that to deal with what I think is a really 
important issue. We have roughly 500 deaths a year in the 
United States from carbon monoxide poisoning. An additional 
15,000 people are hospitalized due to this. If there are 
efforts we can make that are prudent to create greater 
awareness of prevention, I think that is a worthy cause to take 
up, so I am glad that this subcommittee has scheduled this 
hearing on this legislation.
    Just real quickly, there are three basic components to the 
bill. It codifies current voluntary standards for carbon 
monoxide detectors into law. It mandates labeling standards for 
portable generators and establishes a grant program for States 
that want to raise awareness and provide carbon monoxide 
detectors.
    Again, Mr. Chairman, I do appreciate you calling this 
hearing. I hope it is a productive hearing for all of us and we 
look to improve on this legislation as we move forward. I yield 
back my time.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes Dr. Gingrey for 2 minutes for the purposes of 
opening statement.
    Mr. Gingrey. Mr. Chairman, I thank you and I would like to 
ask unanimous consent to submit my prepared remarks for the 
record.
    Mr. Rush. So ordered.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. I want to spend my 2 minutes, Mr. Chairman, 
relating something anecdotally, and I hope you will bear with 
me. It was 53 years ago that I was a 14-year-old kid and my mom 
and dad owned a small mop and pop motel at the state line 
between South Carolina and Georgia, and in Georgia, it was 
permitted to drink at age 21 but in South Carolina it was 
permitted to drink at age 18. So a lot of the soldiers at Fort 
Gordon would come across the river on the weekends and stay at 
our motel for a couple of nights for relaxation and yes, of 
course, to go across the street and drink a little beer. On a 
cold March night on a Saturday night, we had three soldiers in 
one of the motel rooms. Sunday morning my mom and my two 
brothers and I, all Catholic, went to Mass, and when we came 
back to the motel, we were shocked to see Army hearses in the 
parking lot from Fort Gordon, Georgia. And what had happened 
is, those three soldiers in that motel room died from carbon 
monoxide poisoning that night because of a faulty heater. My 
dad has been dead for a long time. I wish he were alive today 
so he could know about Mr. Matheson's bill and be here and 
listen to what we discuss today because he never got over that 
emotionally. It wasn't his fault but of course as I say, he 
felt to blame for the deaths of these 18-year-old and I believe 
one 19-year-old soldier from carbon monoxide poisoning. Their 
bodies were found right next to the door trying to get out of 
that motel room. They almost made it but not quite. So I have 
very strong feelings about this and I told my staff that 
instead of reading the great written remarks he had prepared 
that this really means a lot to me and it all comes back. It is 
like it happened yesterday.
    So this is serious business and I really commend Mr. 
Matheson and I commend my good friend, Mrs. Matsui, as well. I 
look forward to the testimony from the witnesses and discussion 
from my colleagues, and Mr. Chairman, with that I will yield 
back.
    [The prepared statement of Dr. Gingrey follows:]
    [GRAPHIC] [TIFF OMITTED] T6018A.001
    
    Mr. Rush. The Chair now recognizes the gentlelady from 
California, Mrs. Matsui, for 2 minutes for the purposes of 
opening statement.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Matsui. Thank you, Mr. Chairman, and thank you very 
much for calling today's hearing. I would also like to thank 
the panelists for appearing before us today and I look forward 
to hearing your views.
    The legislative proposals being discussed will help 
industry achieve consistent standards of compliance, create 
jobs, protect public health, boost consumer confidence and 
reduce harmful emissions. It is for these reasons that 
Congressman Matheson is to be applauded for sponsoring H.R. 
1796, which will require the United States Consumer Product 
Safety Commission to enforce stronger standards to protect 
people nationwide against the deadly dangers of carbon 
monoxide. As we continue to discuss ways in which certain 
products impact American consumers, it is critical that the 
federal government adopt approaches that are stimulative, 
effective, innovative and efficient. It is equally important, 
however, that we ensure that our Nation follows best practices 
and adheres to the toughest production standards in the world.
    Toward that end, I have partnered with Congressman Ehlers 
to introduce H.R. 4805, which would establish national 
standards for formaldehyde in domestic and imported composite 
wood products. The emissions of formaldehyde, which is a 
chemical widely used in a variety of composite wood product 
applications, are known to have adverse effects on human health 
and resulted in cases of toxicity for those storms victims 
provided FEMA trailers following Hurricane Katrina.
    H.R. 4805 would apply the rule recently adopted by the 
California Air Resources Board, otherwise known as CARB, in 
collaboration with industry, regulatory authorities and public 
interest groups to lower limits for formaldehyde emissions in 
those composite wood products. In doing so, the bill would 
direct the EPA to accept the standard that is already being 
practiced by our domestic industries and ensure that ongoing 
economic recovery efforts continue. I urge my colleagues to 
favorably consider this bipartisan, bicameral legislation which 
is publicly endorsed by industry, environmentalists, labor and 
health care advocates, and I commend Senators Klobuchar and 
Crapo for offering the Senate counterpart and for their 
leadership on jobs and consumer health issues.
    Mr. Chairman, I thank you again for calling today's hearing 
and I yield back the balance of my time.
    Mr. Rush. The Chair recognizes the gentleman from 
Louisiana, Mr. Scalise, for 2 minutes.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Chairman Rush and Ranking Member 
Whitfield for having this hearing today.
    I believe it is important that our subcommittee continue to 
examine chemicals and substances that are used in our everyday 
lives as well as the laws governing their use in commerce. It 
is our obligation to ensure that consumers are properly 
protected. As I have said before, we must also find the 
appropriate balance between protecting our health and the 
environment and protecting jobs in this economy and the 
manufacturers who make the products that we enjoy.
    Of particular interest to me and my constituents for this 
hearing is formaldehyde. It is a chemical that is widely used 
but one that unfortunately my constituents are all too familiar 
with. In 2005, Hurricanes Katrina and Rita destroyed more than 
300,000 homes and displaced approximately 700,000 people. As a 
result, FEMA and its contractors shipped over 200,000 mobiles 
home, travel trailers and other temporary housing units to our 
region. These temporary units helped meet the critical housing 
need following the 2005 hurricanes. Only later did we find out 
that some of these trailers contained formaldehyde and had 
exposed people to health risks associated with this chemical. 
According to the Department of Homeland Security's Inspector 
General, approximately one-third of the units had ``significant 
potential formaldehyde problems.'' This led to many people 
experiencing health and respiratory issues and some even had to 
move out of the trailers.
    Given the challenges we have faced, formaldehyde is an 
issue that we take very seriously in south Louisiana. That is 
why I am pleased to see some of my colleagues focusing on this 
issue and introducing legislation aimed at setting standards 
for formaldehyde in composite wood products. However, I do have 
concerns with the legislation and would like to see changes 
made. My office has discussed this legislation with a number of 
organizations and businesses involved in the composite wood 
industry and they have all echoed support for these changes. 
Chief among these is preemption. As many members have already 
said, I am afraid that without preemption, businesses will face 
a myriad of different state regulations that will only make it 
more difficult for them to conduct business. If California is 
essentially setting the national standard, what is to prevent 
them from changing the standard again, thereby creating 
different requirements and compromising the national standard?
    I am also concerned about the timing requirements and 
restrictions that could be placed on businesses. It is my 
understanding that implementation was delayed in California 
because of the challenges business faced in meeting the 
requirements. I hope that we would look at these issues and the 
potential unintended consequences that could result from this 
bill.
    Again, Mr. Chairman, formaldehyde is a serious issue that 
has impacted many of my constituents and I am pleased that we 
are having this hearing. I do hope that we will fully examine 
the legislation and proceed carefully when debating the 
possibility of implementing the prescriptive requirements of 
one State across the Nation. I look forward to hearing from our 
panelists on their views on H.R. 4805, particularly on whether 
preemption would improve the bill. I yield back.
    Mr. Rush. The gentlelady from Ohio, Ms. Sutton, is 
recognized for 2 minutes.

  OPENING STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Chairman Rush, and thank you for 
holding this hearing on these two bills that are critically 
important moving through the subcommittee. I am proud to be a 
cosponsor of these initiatives and I commend Mr. Matheson and 
Mrs. Matsui for their leadership on these very important safety 
issues.
    The Residential Carbon Monoxide Poisoning Prevention Act 
will require all manufacturers to meet widely accepted 
standards for carbon monoxide detectors, and the Formaldehyde 
Standards for Composite Wood Products Act will protect the 
health of American families from high uses of formaldehyde in 
common household products like flooring, paneling, cabinets and 
doors, both important objectives.
    Carbon monoxide poisoning is the leading cause of poisoning 
death in the United States and formaldehyde has been recognized 
as a carcinogen. National standards will certainly enhance 
safety for consumers and will level the playing field between 
foreign and domestic manufacturers. Currently, foreign 
manufacturers who use unsafe levels of harmful toxins like 
formaldehyde are able to undercut domestic manufacturers who 
put safety above profit. Every year, countless Americans are 
injured, sometimes fatally, by harmful products that have been 
manufactured abroad and imported into the United States.
    I recently introduced the Foreign Manufacturers Legal 
Accountability Act of 2010 to protect American consumers and 
businesses from defective products manufactured abroad. It is 
our job to protect American consumers. The American people 
expect and demand that the products that they are sold are safe 
for themselves and their families. When they install a carbon 
monoxide detector, they expect that it will warn of dangerous 
levels of carbon monoxide, and when they install a new 
countertop or paneling, they expect that the wood products are 
harmless, and we must ensure that that is the case regardless 
of where products are made. Dangerous products are dangerous 
products, and those who would profit over the safety of the 
American people must not escape accountability simply because 
they manufacture unsafe products abroad and ship them to the 
United States for our use, and I yield back.
    Mr. Rush. The Chair now recognizes the vice chairman of the 
subcommittee, the gentlelady from Illinois, Ms. Schakowsky, for 
2 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. I am proud to be a 
cosponsor of the Residential Carbon Monoxide Prevention Act, 
which would establish a mandatory safety standard for all 
carbon monoxide detectors and requires warning labels on 
portable generators, a major source of carbon monoxide 
poisoning. I can't think of more dramatic and compelling 
testimony than we heard from Representative Gingrey about how 
important this legislation is, and I am not going to try and 
elaborate on that.
    We do know, according to the Illinois Department of Public 
Health, however, that infants are even more susceptible to 
carbon monoxide poisoning because their hemoglobin binds with 
carbon monoxide better than adults do, so this is a special 
problem for children. The highest rates are among seniors 
because they are most likely to mistake the symptoms of carbon 
monoxide poisoning for the flu or general fatigue. So I am very 
happy to join my colleagues in H.R. 1796.
    The Formaldehyde Standards for Composite Wood Products Act 
is another very important bill, and I would ask my colleague, 
Representative Matsui, to add me as a cosponsor of the bill to 
establish a strong standard for emissions of formaldehyde from 
the covered products, which are very common in usage and in 
most of our homes and backyards. But I think it is important to 
emphasize that Congress is being forced to act on this measure 
because the Environmental Protection Agency hasn't been able to 
do so under the existing Toxic Substances Control Act. This is 
another reason why we will turn our attention to reforming TSCA 
later this year. Thank you, Mr. Chairman.
    Mr. Rush. The Chair recognizes the gentleman from Nebraska, 
Mr. Terry, for 2 minutes.
    Mr. Terry. Waive opening statement.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes the gentlelady from Colorado, Ms. DeGette, for 2 
minutes.
    Ms. DeGette. I will put my opening statement in the record.
    [The information was unavailable at the time of printing.]
    Mr. Rush. The Chair thanks the gentlelady. The chair now 
recognizes the gentlelady from Florida, Ms. Castor, for 2 
minutes.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Thank you, Chairman Rush, and good morning, 
everyone.
    It is a good day when we can come to a hearing and discuss 
bipartisan legislation that will put more Americans back to 
work and make families and communities safer. I am supportive 
of both of these bills because there is no doubt they will save 
lives and jobs. When industry and public health can agree that 
new laws are in the best interest of all involved, that is very 
positive. However, I want to stress that these bills should be 
viewed as just steps in the path to where we really need to go. 
They don't really bring us across the finish line.
    Now, H.R. 1796, the carbon monoxide bill, requires that the 
voluntary standard for carbon monoxide alarms be made 
mandatory, as many of you know, carbon monoxide, it is the 
leading cause of poisoning death in the United States each year 
so the urgency to pass this bill is particularly acute for 
Floridians because we are beginning to plan for hurricane 
season, and besides bottled water and batteries, Floridians are 
going out to buy generators, and when the big storms roll up 
through the Gulf or the Atlantic, they lose power and start 
their generators, and these generators, they will put them in 
the garages and the gas is colorless, odorless, and this poison 
can kill them while they sleep and we have had some very sad 
occasions there. So we need to pass this uniform standard. This 
is going to protect all of us. It is a good start but what we 
really need to do is pass comprehensive TSCA reform so that we 
don't create more loopholes with piecemeal chemicals 
legislation. We need to give EPA the authority to regulate 
harmful chemicals in many of the products that are being dumped 
on us from overseas.
    So in closing, I strongly support both of these bills and 
encourage my colleagues to vote for them as well.
    Mr. Rush. The Chair thanks the gentlelady and the Chair 
thanks all the members for their opening statements.
    It is now my privilege to welcome our panel of witnesses 
before this subcommittee. It is indeed an esteemed panel, and I 
will introduce each panelist beginning on my left where we find 
Mr. Robert J. Howell, Jr., who is the assistant executive 
director of the Office of Hazard Identification and Reduction 
for the U.S. Consumer Product Safety Commission. Seated next to 
Mr. Howell is Dr. Eric Lavonas, who is the associate director 
of the Rocky Mountain Poison and Drug Center, and he is an 
emergency physician at the Denver health Medical Center in 
Denver, Colorado. And seated next to Dr. Lavonas is Mr. John 
Andres, who is the director of engineering for the Kidde 
Corporation. And seated next to Mr. Andres is Mr. Mark Devine, 
who is the vice president of marketing for First Alert, which 
is an outstanding and illustrious company from my home State of 
Illinois located south of Chicago in Aurora, Illinois, where I 
visited many times, and First Alert is indeed an excellent 
Illinois corporate citizen.
    I want to welcome all of the witnesses today, and I want 
you to know that it is the practice of this committee that each 
witness must be sworn in, so would you stand and raise your 
right hand?
    [Witnesses sworn.]
    Mr. Rush. Let the record reflect that the witnesses have 
all answered in the affirmative.
    And now we will invite Mr. Howell to present his opening 
statement. Mr. Howell, you are recognized for 5 minutes.

    TESTIMONY OF ROBERT J. HOWELL, JR., ASSISTANT EXECUTIVE 
 DIRECTOR, OFFICE OF HAZARD IDENTIFICATION AND REDUCTION, U.S. 
    CONSUMER PRODUCT SAFETY COMMISSION; ERIC LAVONAS, M.D., 
  ASSOCIATE DIRECTOR, ROCKY MOUNTAIN POISON AND DRUG CENTER, 
EMERGENCY PHYSICIAN, DENVER HEALTH MEDICAL CENTER; JOHN ANDRES, 
   DIRECTOR OF ENGINEERING, KIDDE RESIDENTIAL AND COMMERCIAL 
 DIVISION; AND MARK DEVINE, VICE PRESIDENT OF MARKETING, FIRST 
                             ALERT

               TESTIMONY OF ROBERT J. HOWELL, JR.

    Mr. Howell. Good morning, Chairman Rush, Ranking Member 
Whitfield and members of the Subcommittee on Commerce, Trade, 
and Consumer Protection. My name is Robert Howell and I am the 
assistant executive director for the Office of Hazard 
Identification and Reduction at the U.S. Consumer Product 
Safety Commission. I appreciate the opportunity to testify 
before you this morning regarding H.R. 1796, the Residential 
Carbon Monoxide Poisoning Prevention Act and the overall 
dangerous of carbon monoxide poisoning.
    Before I begin, I would like to note for the record that 
the testimony that I will give this morning is mine and 
reflects the views of my technical staff. The testimony has not 
been reviewed or approved by the Commission and may not 
necessarily reflect the views of the Commission.
    Carbon monoxide is a colorless, odorless and poisonous gas 
that results from the incomplete combustion of fuels such as 
natural gas, gasoline, oil, coal and other fuels. The health 
effects related to carbon monoxide depend upon its 
concentration in the blood, which in turn depends upon its 
concentration in air, the duration of exposure and each 
individual's general health.
    Some symptoms of CO poisoning may mimic common illnesses, 
such as influenza or colds, opening up the opportunity for an 
initial misdiagnosis. Patients are frequently unaware of 
exposures to carbon monoxide, and health care providers may not 
always consider carbon monoxide poisoning as a cause of such 
nonspecific symptoms.
    CPSC staff estimates that there were 180 unintentional, 
non-fire carbon monoxide poisoning deaths in 2006 associated 
with consumer products with 71 percent of these deaths 
occurring in homes. Gas furnaces and boilers have historically 
been a leading cause of carbon monoxide deaths associated with 
consumer products. However, portable generator-related have 
increased more than 350 percent in recent years from an average 
of about 16 deaths per year from 1999 through 2001 to about 75 
deaths per year from 2004 through 2006. But regardless of the 
type of appliance involved in the incident, CPSC data show that 
carbon monoxide poisoning and death are much more likely to 
occur in homes with no functioning carbon monoxide alarms.
    CPSC recommends that every home have a carbon monoxide 
alarm in the hallway near the bedrooms in each separate 
sleeping area. These alarms should be battery operated or plug-
in with a battery backup. CPSC publishes annual press releases 
on the importance of maintaining home heating systems using 
carbon monoxide alarms, meeting the requirements of the UL 2034 
standard and installing carbon monoxide alarms outside every 
sleeping area in the home. We also issue our rapid response 
media alerts when an oncoming storm is likely to spur power 
outages, as happened in this winter's historic snowfalls. The 
Commission has also taken action to warn consumers of the 
specific danger posed by the improper operation of portable 
generators. In January 2007, the Commission issued a final rule 
making a portable generator labeling requirement mandatory on 
units manufactured after May 13, 2007.
    The Commission has also directed staff to investigate 
methods to address the carbon monoxide hazard associated with 
portable generators. CPSC staff is working expeditiously and 
making excellent progress to develop and demonstrate a proof of 
concept for technology that would lower the risk of carbon 
monoxide poisoning associated with portable generators. To 
date, the work has yielded promising preliminary results such 
as prototype generators which would significantly lower 
emissions rates than found in today's marketplace. However, it 
likely will take another 2 years of additional testing and 
modeling before the Commission is ready to consider a proposed 
rule to regulate carbon monoxide emissions from portable 
generators.
    CPSC staff supports the goals of H.R. 1796. Carbon monoxide 
alarms save lives by warning consumers of the presence of 
carbon monoxide before the onset of its debilitating effects. 
CPSC staff believes that the current edition of UL 2034 is an 
effective standard and that products meeting those requirements 
provide adequate protection against carbon monoxide poisoning. 
Making conformance to UL 2034 mandatory will establish a 
minimum acceptable performance standard for carbon monoxide 
alarms and will give CPSC greater authority to keep non-
complying carbon monoxide alarms out of the U.S. marketplace.
    CPSC staff also supports the provisions in H.R. 1796 for a 
state grant program for carbon monoxide alarms. Reportedly, 
only 35 to 50 percent of U.S. households have carbon monoxide 
alarms. Working with state and local authorities is critical to 
amplifying our message on the dangers of carbon monoxide 
poisoning. Getting carbon monoxide alarms into more American 
homes, both existing and new construction, will save lives. We 
believe the passage of H.R. 1796 along with our work to reduce 
or eliminate carbon monoxide emissions at the source, alerting 
consumers to the presence of hazardous carbon monoxide levels 
if they occur, and educating consumers to the hazards posed by 
carbon monoxide will provide a comprehensive approach to 
addressing the risk to the American consumer from carbon 
monoxide.
    Mr. Chairman, thank you again for the opportunity to 
testify on H.R. 1796 and the overall issue of carbon monoxide 
dangers.
    [The prepared statement of Mr. Howell follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.002
    
    [GRAPHIC] [TIFF OMITTED] T6018A.003
    
    [GRAPHIC] [TIFF OMITTED] T6018A.004
    
    [GRAPHIC] [TIFF OMITTED] T6018A.005
    
    [GRAPHIC] [TIFF OMITTED] T6018A.006
    
    [GRAPHIC] [TIFF OMITTED] T6018A.007
    
    Mr. Rush. The Chair now recognizes Dr. Lavonas for 5 
minutes for the purposes of opening statement.

                   TESTIMONY OF ERIC LAVONAS

    Dr. Lavonas. Good morning, and thank you. I would like to 
thank the committee and particularly Mr. Rush and Mr. Matheson 
for inviting me to be here today. As Mr. Rush said, I am an 
emergency physician and a medical toxicologist from Denver. I 
am one of Ms. DeGette's constituents. Thank you. I am the 
associate director of the Rocky Mountain Poison and Drug 
Center, which is the State-designated poison control center for 
five States, and also a faculty member at the University of 
Colorado.
    As Mr. Gingrey said, this is serious business, and I am 
passionate about this, probably for the same reason that Mr. 
Gingrey is. Carbon monoxide poisoning is the leading cause of 
unintentional poisoning death. That is after you subtract out 
deaths related to complications from drug abuse. The most 
recent data from CDC reports 562 unintentional deaths caused by 
carbon monoxide poisoning. That was in 2004. That is not 
counting fire-related deaths nor is it counting another 1,200 
deaths due to suicide. There are approximately 20,000 people 
treated in America's emergency departments each year because of 
unintentional carbon monoxide poisoning. Again, that is not 
counting suicide attempts. As Ms. Schakowsky pointed out, 
infants and the elderly are at increased risk, as are women. 
Surprisingly, there is not much variation around the country. 
North, south, east or west, this is still a big problem. Of 
those 20,000 or so people treated in emergency departments 
every year, about a quarter will have lasting brain damage, and 
that is even with the best available medical treatment. This is 
a major public health problem in the United States.
    So Mr. Gingrey stole my thunder. Statistics are important 
but sometimes it helps to understand two or three deaths 
instead of 562. In November 2008, we had an incident in the 
Colorado mountains in which the Lofgren family from Denver won 
use of a ski house in their kids' Presbyterian school charity 
auction. Unfortunately, a vent pipe in the heating system of 
that home had come unglued, apparently well installed but some 
glue failed. A pipe was disconnected. Parker and Caroline 
Lofgren, their 10-year-old son, Owen, and their 8-year-old 
daughter, Sophie, never woke up the next morning.
    In January of 2009, we had a winter storm blow through 
Denver, as it is wont to do, and it loosened the chimney cap on 
an apartment building near the University of Denver. So the 
building super went up on the roof, tightened the cap down as 
you should do, and accidentally killed a 23-year-old graduate 
student named Lauren Johnson, who was found dead in her 
apartment the next morning.
    But let me tell you a success story, and these kinds of 
success stories are why I am here. So when I was in Charlotte, 
North Carolina, we helped to pass and then strengthen a 
residential carbon monoxide alarm ordinance. The Charlotte 
ordinance requires a carbon monoxide alarm in every dwelling 
unit in the county. So this January, about 2 months ago, a 
woman, presumably a single mom, for reasons that I don't 
understand decided to use a charcoal grill inside the house to 
cook a meal for herself and her three small children. Now, the 
landlord is a good landlord and he complied with the law so 
there was a carbon monoxide alarm and a smoke alarm in every 
dwelling unit in the building. Her carbon monoxide and smoke 
alarms went off but she knew the building wasn't on fire. She 
didn't understand about carbon monoxide and presumably she 
pulled the batteries. A few hours later, the carbon monoxide 
alarm in the upstairs apartment went off. The upstairs neighbor 
recognized the problem, went downstairs to check on his 
neighbor. He could hear people moving inside the apartment but 
nobody could answer the door, so he called Charlotte Fire 
Department. They gained entry to the apartment, found the 
mother semicomatose on the floor and the children severely ill. 
Happy ending. So if you want to know why am I here today, there 
are five very good reasons why I am here today. We had a good 
landlord spurred by a good law.
    The impact on the survivors is meaningful. For example, I 
took care of an international--this is a patient I treated, so 
I can't use his name but an international building business 
consultant who flew back from wherever he flew back from, got 
home to his apartment, dropped his bag on the couch, went to 
bed. In the middle of the night his carbon monoxide alarm went 
off. He had to crawl down the steps to get help but we were 
able to treat him. He initially made what looked like a good 
recovery and then subsequently developed some problems with 
concentration. I lost track of him after we had referred him to 
brain injury rehab but he was unable to work, unable to perform 
his job.
    So as you have heard, carbon monoxide poisoning is called 
the silent killer. This poison has no warning properties. You 
can't see it, you can't smell it. It mixes freely with air. The 
first signs that you are being poisoned feel like the flu: 
vomiting, diarrhea, achiness, fatigue, headaches. Doctors miss 
this diagnosis a lot, sometimes with tragic results.
    If we are going to do something about this, we need three 
things: source reduction, early detection and public education. 
Now, I am sitting next to an expert from the Consumer Product 
Safety Commission so it is silly for me to talk about source 
reduction. I am not an engineer. Public education is important 
and both CDC and CPSC are doing aggressive messaging for public 
education. We can always do more. But we are here today to talk 
about early detection, carbon monoxide alarms. Even if you 
could control the behavior of 303 million Americans, there are 
127 million households in this country and things break. I have 
had a carbon monoxide leak in my own home, and my home is 2 
years old. Carbon monoxide alarms are inexpensive. They are 
about 20 bucks, and the price keeps going down. The sensor 
reliability for modern alarms is very good. We tracked our 
false alarm rate in Charlotte and found that about 60 percent 
of the time when Charlotte Fire Department got called for CO 
alarm activation, they found CO in the home.
    As Ms. Castor said, this bill is a small step towards an 
important goal and I support the goals of this bill, and would 
look forward to an opportunity to come back with something even 
more effective and impactful in the future. Thank you.
    [The prepared statement of Dr. Lavonas follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.008
    
    [GRAPHIC] [TIFF OMITTED] T6018A.009
    
    [GRAPHIC] [TIFF OMITTED] T6018A.010
    
    [GRAPHIC] [TIFF OMITTED] T6018A.011
    
    Mr. Rush. Thank you. The Chair recognizes Mr. Andres for 5 
minutes.

                    TESTIMONY OF JOHN ANDRES

    Mr. Andres. Good morning. I am John Andres, director of 
engineering for Kidde Residential and Commercial Division 
located in Mebane, North Carolina. Thank you, Chairman Rush and 
members of the committee, for the opportunity to contribute to 
the discussion on the prevention of carbon monoxide poisoning 
in the United States.
    Kidde Residential and Commercial Division is part of UTC 
Fire and Security, a subsidiary of United Technologies 
Corporation. We are a proud leader in designing and 
manufacturing lifesaving residential carbon monoxide alarms and 
other fire safety devices and are committed to strict 
compliance to industry standards.
    Kidde supports enactment of H.R. 1796, the Residential 
Carbon Monoxide Safety Act. The Centers for Disease Control and 
Prevention report each year unintentional CO poisoning kills 
more than 400 Americans, requires 20,000 more to seek emergency 
medical attention and causes more than 4,000 hospitalizations. 
H.R. 1796 is a strong first step toward preventing these 
tragedies. I commend Congressman Matheson for his leadership in 
elevating this public health and safety issue.
    H.R. 1796 would focus much-needed federal attention and 
resources toward ending accidental carbon monoxide poisoning, 
The bill's provisions to create a grant program supporting 
residential CO alarm laws are especially important. However, 
for the purposes of today's hearing, my comments will focus on 
describing the carbon monoxide hazard and how CO alarms operate 
to provide warning and on explaining why it is necessary to 
establish mandatory federal product safety standards as laid 
out in H.R. 1796.
    Known as the silent killer, carbon monoxide is a byproduct 
of incomplete combustion. Potential sources are gas-burning 
appliances such as a furnace, water heater, stove and grill as 
well as other fuel-burning devices like fireplaces and engines. 
If such devices are improperly installed or malfunction, carbon 
monoxide can build up inside a home. Carbon monoxide easily 
mixes with the air and can quickly reach dangerous levels. 
Because one cannot see, taste or small carbon monoxide, the 
only safe way to detect the gas is to install working carbon 
monoxide alarms. Kidde and fire safety experts such as the 
National Fire Protection Association recommend placing carbon 
monoxide alarms outside each bedroom and on every level of an 
occupied dwelling.
    When inhaled, carbon monoxide bonds with the blood's 
hemoglobin to form carboxyhemoglobin, which then deprives cells 
of oxygen. The CO alarm works by measuring CO concentrations 
over time to ensure that an alarm will sound before a person's 
blood level reaches 10 percent carboxyhemoglobin. Below this 
level, a normally healthy adult will not experience symptoms of 
CO poisoning.
    Two key attributes of carbon monoxide alarms are accuracy 
and reliability. These form the cornerstone of Underwriters 
Laboratories UL standard 2034, an independent third-party 
standard for which carbon monoxide alarms are voluntarily 
tested and listed. UL 2034 is an American National Standards 
Institute, or ANSI, accredited standard that combines input 
from medical experts, approval bodies like UL, government 
agencies such as the Consumer Product Safety Improvement Act, 
the National Fire Protection Association, users and 
manufacturers in order to create a robust standard of 
performance. First published in 1992, UL 2034 has gone through 
several revisions, each of which is based on years of field 
test data intended to progressively strengthen the standard. 
Kidde supports this standard because it specifically tests the 
product design for electrical safety, mechanical robustness and 
the accuracy of CO detection over time and in different 
environmental conditions. UL 2034 is continually reviewed by a 
standards technical panel in order to keep pace with 
technological advances and past lessons learned. This revision 
process has led to the creation of CO-sensing technology that 
is more advanced, stable and reliable than past generations.
    To date, 24 States have enacted laws requiring CO alarms in 
residential dwellings, and while most mandate that CO alarms 
meet UL 2034, there is no uniform requirement. More States will 
likely adopt similar legislation in order to avoid confusion 
among regulators, consumers and the industry. State lawmakers 
need a consistent standard to define what constitutes an 
approved alarm. Without such a reference, conflicting 
regulations arise that counter one of the CPSC's objectives, 
which is to develop uniform safety regulations for consumer 
products and to minimize conflicting State and local 
regulations.
    In closing, each week we hear families whose lives have 
been saved through the use of carbon monoxide alarms. Having a 
CO alarm can make the difference between life and death. A 
federal standard would provide an umbrella of protection for 
all consumers in the United States as well as increased 
awareness and save lives.
    Again, I thank the committee members for their 
consideration of H.R. 1796 and for raising awareness about CO 
dangers. Congressman Matheson, we look forward to working with 
you to pass this important legislation expeditiously. Thank you 
for the opportunity to contribute to the discussion.
    [The prepared statement of Mr. Andres follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.012
    
    [GRAPHIC] [TIFF OMITTED] T6018A.013
    
    [GRAPHIC] [TIFF OMITTED] T6018A.014
    
    [GRAPHIC] [TIFF OMITTED] T6018A.015
    
    [GRAPHIC] [TIFF OMITTED] T6018A.016
    
    Mr. Rush. Mr. Devine is recognized for 5 minutes.

                    TESTIMONY OF MARK DEVINE

    Mr. Devine. Thank you very much, and good morning. As the 
chairman indicated, I am Mark Devine, vice president of 
marketing for First Alert and BRK Brands in Aurora, Illinois. I 
would like to first take this opportunity to thank all of the 
members for bringing this important issue in front of us all 
today. I would like to also thank Chairman Rush for his kind 
words regarding our company. We do enjoy being in Illinois with 
you, sir. In addition, I would like to thank Mr. Matheson for 
really representing this whole event in front of us today.
    First Alert is a whole-home safety company with a 
foundation in fire safety, carbon monoxide safety and 
extinguishing products. Our name is very synonymous with 
alarms, and like Mr. Andres, we also take pride in our quality, 
innovation, engineering and our manufacturing. We are also a 
leader in our industry in terms of public outreach and 
collaboration with all the fire safety organizations.
    I speak for First Alert when I say that we are concerned 
about protecting and preserving human lives. That is the 
primary reason that we support in its entirety the Residential 
Carbon Monoxide Poisoning Prevention Act, H.R. 1796. As we 
understand it, this bill would require carbon monoxide alarms 
to be installed in residential dwellings and places where 
people sleep. This provides an effective way to reduce the 
incidence of carbon monoxide poisoning.
    The need for such federal regulation is strong. Carbon 
monoxide continues to be the number one cause of accidental 
poisoning in the United States. Each year, tens of thousands of 
people as we have heard are driven into the medical care 
facilities as well as over 400 lives are lost each year. We are 
keenly aware of how many fatal CO poisoning incidents occur in 
this country. Another example is just recently Amanda's Law 
took effect in the State of New York. This was named for Amanda 
Hansen. She died of CO poisoning at age 16 while sleeping at a 
friend's house. The law requires that New York State residents 
take necessary precautions to protect themselves from the 
silent killer. Amanda's father, Ken Hansen, has become a vocal 
proponent of measures that would require consumers to protect 
themselves from carbon monoxide poisoning.
    Moreover, each year we receive hundreds of calls, letters 
and e-mails from individuals whose families have been saved, 
and I brought just a few examples today of the literally 
hundreds of examples that we receive from people who purchased 
alarms and who have had unfortunate incidents but the alarms 
saved their lives. These people take the time to literally 
write in, call in, e-mail, send photographs because they feel 
so compelled after they have had the saving incident from the 
alarm, so it is a strong testimonial as to why I am here today 
is to help more individuals understand the necessity for alarms 
within their homes.
    To better ascertain consumers' knowledge about carbon 
monoxide and their awareness, we conducted a survey in 2009 
where we spoke to 1,000 adults across the United States. The 
survey that we conducted, we found some very startling 
statistics. Forty-seven percent of households still do not have 
carbon monoxide alarms. These products have been in existence 
for well over 10 years, a lot of education, a lot of 
information, but again, nearly 50 percent still do not have 
alarms. We also asked consumers do you understand the 
importance of carbon monoxide. Seventy-three percent of those 
individuals said yes, they do understand carbon monoxide is 
very hazardous and it is very important to them that they have 
protection but yet they are not going out and purchasing 
products to protect themselves. We also learned that 23 percent 
of those individuals who have purchased alarms have never 
replaced them. These products, as you stated, have been in 
existence for well over 10 years. They do need to be replaced 
as time goes on, just like any electronic device within your 
home. So the message is not fully penetrating the American 
public at this time.
    With this said, we can also confidently state that 
education can work. In 2002, there was a study that indicated 
that 40 percent of households claim to have a carbon monoxide 
alarm, but in our recent study that number has only increased 
in 7 years by 9 percent. So there are still many homes that are 
unprotected. Because of the effectiveness of education, we do 
support earmarking grant money for additional public education 
efforts. We believe this will further curb the rate of 
accidental carbon dioxide poisoning. We greatly are encouraged 
by the number of States and municipalities who have enacted 
legislation. We also are grateful to legislators like 
yourselves who are now working hard to gain that federal 
support.
    Again, I want to thank all of this committee and the 
chairman, Mr. Rush, for allowing us to be here today to provide 
this testimony.
    [The prepared statement of Mr. Devine follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.017
    
    [GRAPHIC] [TIFF OMITTED] T6018A.018
    
    Mr. Rush. Thank you. The Chair thanks all the witnesses, 
and now the Chair recognizes himself for the purposes of asking 
questions of the witnesses, and the Chair recognizes himself 
for 5 minutes.
    I am going to begin with you, Mr. Howell. In your 
testimony, you state that a properly functioning carbon 
monoxide alarm should be installed in all residences and 
currently many States and localities require that carbon 
monoxide detectors be installed in homes to protect against 
carbon monoxide poisoning. The question that I have, actually 
four questions, I will ask them all in consideration of the 
time that I have and you can answer them, and if anybody else 
wants to chime in, please. The first question is, have these 
State and local regulations generally been effective in 
protecting people from harmful exposure to carbon monoxide, and 
are there any inconsistencies that give you concern? Should 
some form of these State and local requirements be adopted at 
the federal level, and lastly, States and localities also have 
regulations on fire detection. Are there efforts being made to 
ensure that the two detectors, fire and carbon monoxide, that 
they work together or be combined in some way?
    Mr. Howell. Thank you, sir. In regards to the first 
question, as far as the effectiveness of State and local codes 
in requiring alarms, they certainly are effective. Given the 
fact that our data shows that 35 to 50 percent of homes have no 
alarms at all, I think I need to emphasize that there is an 
urgent need to get an alarm in every home, so whether it be a 
federal requirement or a State or local requirement, any move 
that would put an alarm in every home would certainly be 
effective in reducing the number of incidents, death and 
injuries, from carbon monoxide poisoning. As far as the 
question regarding a need for a federal requirement versus 
State and local, you know, I represent the technical arm of the 
agency and that truly would be a policy question. From a 
technical perspective, once again, regardless of what the 
source of the requirement was, any move to get an alarm in the 
home would certainly improve the odds of the American consumer 
surviving if exposed to hazardous levels of carbon monoxide.
    Mr. Rush. And what about combining fire and----
    Mr. Howell. There are combined smoke alarms and CO alarms. 
You know, at this point in time as technology advances, you 
know, certainly there be an opportunity to combine those but 
the sensing technologies required for those devices are 
certainly unique and we want to ensure that the performance 
standards for each device reflect the particular hazard that is 
trying to identify an alarm to.
    Mr. Rush. Dr. Lavonas, do you have any response to that?
    Dr. Lavonas. Certainly. In answer to your first question, I 
absolutely agree with Mr. Howell. The State and local laws are 
generally effective. They are a patchwork quilt of some strong 
and some weak provisions. However, every step in the right 
direction gets you one step further in the right direction. 
There are inconsistencies, and I would love to see a federal 
standard on this, but that would be a much longer discussion 
than what we are prepared for today.
    In terms of the combinations, in my home I have two 
combination dual-head smoke-carbon monoxide alarms, three wire 
nuts to switch them. I dropped down the existing smoke head, 
three wire nuts, put up a smoke-carbon monoxide combination 
head. That takes advantage of the interconnect system that is 
part of smoke alarms in the code. Both of the major building 
standards, code-setting organizations have adopted carbon 
monoxide alarms. It is in the most recent version of both the 
international residential code and the National Fire Protection 
Association 720 code. However, building codes only trigger when 
you build or renovate a structure so if we are going to use 
building codes to solve this problem, it will take a good 30 
years. We are losing people every week, so I would love to see 
a strong federal initiative on this question. That is my 
opinion.
    Mr. Rush. I am going to now recognize Mr. Whitfield for 5 
minutes.
    Mr. Whitfield. Well, thank you, Mr. Chairman, and thank you 
all very much for your testimony.
    Mr. Howell, I want to start off with you, a couple 
questions. I notice in your testimony that you said that the 
Consumer Product Safety Commission supports the goals of H.R. 
1796. Do you all support this specific legislation?
    Mr. Howell. We do certainly, and this is from a technical 
staff perspective. Technical staff certainly supports the 
intent of the legislation. We believe that there is a need to 
work together on the language of the warning label, but beyond 
that, certainly putting a smoke alarm in every home, a grant 
program and, you know, making the UL standard for carbon 
monoxide alarms mandatory, we certainly support that language.
    Mr. Whitfield. So on the technical side, the warning label 
is just one area that you would like to----
    Mr. Howell. And it is really a minor issue. Warning labels 
are a tricky science and we have human factor experts that 
would certainly be willing going forward to work with committee 
staff to develop the appropriate language for a warning label.
    Mr. Whitfield. And would there be any other technical areas 
that you would be concerned about?
    Mr. Howell. No, sir.
    Mr. Whitfield. Now, one other question I wanted to ask you. 
Under section 7 of the Consumer Product Safety Act, you all 
have the authority to promulgate a safety standard if two 
conditions are met. Do you have the authority to mandate the 
standard of alarms?
    Mr. Howell. Section 7 of the CPSA requires the Commission 
to rely upon voluntary consumer product safety standards rather 
than promulgate a consumer product safety standard whenever 
compliance with the voluntary standard is adequate or would 
eliminate or adequately reduce the risk of injury and it is 
likely that there is substantial compliance with the standard. 
At this point we believe that the standard is indeed adequate 
to reduce or eliminate the risk of injury and we also believe 
that there is substantial compliance.
    Mr. Whitfield. So that would prohibit you from making it 
mandatory?
    Mr. Howell. Yes, sir.
    Mr. Whitfield. Thank you.
    I notice in the legislation on page 4, and Mr. Andres, have 
you read this legislation?
    Mr. Andres. Yes, I have.
    Mr. Whitfield. It says, ``Paragraph 2 does not apply to any 
carbon monoxide detector not covered by the standard as 
provided in section 1.4 of the standard.'' What is that 
referring to?
    Mr. Andres. We actually read through that and we were a 
little bit confused by some of the language in there, and I 
think we need to work with Mr. Matheson to look at some of the 
language. I think the way that the provision is written right 
now, there is a lot of confusion between the term ``detector'' 
and ``alarm'' and they use those two terms interchangeably, and 
technically they are actually two different devices. So I think 
there is some language adjustments that need to be made to 
clean that up because honestly I didn't really understand what 
they were referring to in that section.
    Mr. Whitfield. Yes, so I think it is important that we 
remember alarm and detector are two separate things, correct?
    Mr. Andres. That is correct, and oftentimes a different UL 
standard would be applicable.
    Mr. Whitfield. And on page 3 where they make this a 
mandatory standard, it says ``mandatory consumer product safety 
standard, the American National Standard for single and 
multiple station carbon monoxide alarms.'' What is that safety 
standard in layman's terms? What is that?
    Mr. Andres. Well, UL 2034 is the standard for conformance 
so----
    Mr. Whitfield. For performance?
    Mr. Andres. It not only looks at performance but also has 
requirements for design characteristics, so Underwriters 
Laboratories would actually accept a manufacturer's, a number 
of their alarms, and that particular standard would be used to 
test the design characteristics of that. When it comes to 
carbon monoxide alarms, they are going to look at not only 
electrical and mechanical safety but they are also going to 
look at specificity to detection of carbon monoxide. They are 
also going to look at the accuracy of carbon monoxide 
detection, which is very important, and they are going to look 
at the accuracy over time. So the UL 2034 standard has evolved 
over the years and it is actually a very good standard now. It 
has gone through a number of changes that have made it a very 
robust standard.
    Mr. Whitfield. I know that we have an issue in the United 
States of not enough people have these in their homes, but how 
many alarms would you say are being sold in the United States 
today that do not meet this standard that is set out in this 
legislation, or would you have any idea?
    Mr. Andres. I actually think today we are fortunate that 
most alarms that I am aware of are actually listed to this ANSI 
standard. I am not aware of any right now that are not.
    Mr. Whitfield. Even imported alarms?
    Mr. Andres. Correct.
    Mr. Whitfield. OK. I see my time has expired, Mr. Chairman.
    Mr. Rush. The Chair now recognizes the gentleman from Utah, 
the author of the legislation, Mr. Matheson, for 2 minutes.
    Mr. Matheson. Thank you, Mr. Chairman.
    Mr. Howell, you may have referenced this a little bit in 
your opening statement but there is a Senate version of this 
bill, as you are aware, and in the Senate version, it includes 
a provision that mandates the use of a shutoff switch, it is my 
understanding, on portable generators, where the machine 
would--you know, there is detection of carbon monoxide level at 
some point and it would disable the generator. And I understand 
the CPSC has been working in conjunction with the University of 
Alabama in looking at the development of this type of a device. 
Could you just give us a quick update on the progress of this 
study and how effective the shutoff switch has been in reducing 
the dangers of carbon monoxide poisoning?
    Mr. Howell. Yes. CPSC staff investigated two approaches to 
the concept of a gas-sensing shutoff device to shut off an 
operating portable generator before it created a hazardous CO 
exposure. Both methods pose significant disadvantages. One 
approach was that of a shutdown system in which the CO-sensing 
device was mounted on the generator to detect the level of CO 
in the vicinity of the generator. Staff found that a 
disadvantage to this approach was a propensity for false 
shutdowns when the generator was operated in a ventilated 
outdoor environment but where the exhaust tended to accumulate 
around the generator. Staff also is concerned about the sensory 
reliability and life which may be comprised when exposed to the 
door environmental conditions, engine vibration, combustion 
products and heat.
    The second approach the staff investigated involved a CO-
sensing device located in a remote location away from the 
generator where occupants in the house might be that would shut 
down the portable generator using wireless technology if unsafe 
CO was developing inside the house. We conducted a 
demonstration using off-the-shelf components including a 
residential CO alarm, a radio frequency receiver and 
transmitter, and a portable generator. One disadvantage, and I 
want to say a major disadvantage of this approach was that it 
required the consumer to properly locate the remote sensor in 
the occupied area in order for it to work successfully and 
therefore it could be easily defeated by the consumer.
    Mr. Matheson. I appreciate that.
    Mr. Chairman, I just wanted to get the Consumer Product 
Safety Commission's understanding of those difficulties because 
that is one of the differences between the House and the Senate 
bill, and the reason we did not include this language in the 
House version was because of these concerns about how well a 
shutoff switch would work, and I will yield back.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes for 2 minutes the gentleman from 
Nebraska, and the Chair acknowledges the fact that the 
gentleman waived his opening statement so if you require an 
extra 2 minutes----
    Mr. Terry. I appreciate that. My questions will be short. I 
am not sure about the answers, though.
    Let me first attack, or not attack but talk about the 
standards for both the detectors and the alarms. You need to 
help me work through why we need to have Congressional law to 
mandate the standard when it seems to me that that isn't really 
what the issue is. The issue is that too many homes don't have 
CO detectors. Which one of you said that you actually had 
incident in your own home? Was that you, Doctor?
    Dr. Lavonas. That was me, Mr. Terry.
    Mr. Terry. Yes, we have had the same thing in our home. I 
have got three little kids, and we had our CO detector go off 
and found out that there was some crack in a part of the 
furnace, and so I am a believer in having those, but making the 
standard that everyone seems to agree on is adequate today 
mandatory, I am not sure we need to do that.
    Mr. Howell, you are on the technical side. Explain to me 
why the voluntary standard that two of you have already said 
seems to be adequate needs to be made mandatory.
    Mr. Howell. Mr. Terry, the decision to make this standard 
mandatory certainly would be the prerogative of the Congress. 
CPSC, as I indicated, not only is not currently involved in a 
move to make this standard mandatory but the CPSA actually 
prohibits us from making it mandatory as long as we feel like 
there is substantial compliance and that the standard 
adequately protects the American consumer.
    Mr. Terry. So if there wasn't compliance to this voluntary 
standard and that was inadequate, then you could make it 
mandatory?
    Mr. Howell. We could make it mandatory or we certainly 
could promulgate a standard that was more stringent than the 
current UL standard.
    Mr. Terry. But you think that the current voluntary 
standard is adequate, if I buy a CO detector that is going to 
meet the standards?
    Mr. Howell. Absolutely. Having said that, if I may, making 
this standard mandatory would give CPSC greater authority to 
keep any non-complying carbon monoxide alarms out of the U.S. 
market should they try to enter the market.
    Mr. Terry. Have you found instances of noncompliance?
    Mr. Howell. At this point we have not.
    Mr. Terry. And then the other is on the warning labels and 
pictograms on portable generators. I think Jim has done a good 
job of showing why I think we probably need to do that, but the 
question then is begged, why does Congress need to mandate that 
on you? And that would be your-sorry, Mr. Howell. You get to 
represent the agency that has the authority.
    Mr. Howell. That is not a problem. As I indicated before, 
in 2007 CPSC actually mandated warning labels on portable 
generators and on the packaging, and very clearly identified 
the risk to the consumer and the correct behavior. Our label 
clearly states using a generator indoors--and this part is in 
bold and caps--can kill you in minutes. There are also 
pictograms that indicate the behavior that we wanted to 
discourage. It says never use inside a home or garage even if 
doors and windows are open, and then it also illustrates the 
correct behavior. Only use outside and far away from windows, 
doors and vents. The Commission upon staff's recommendation and 
the development of this label by our human factors experts felt 
like this was a good label and served the purpose.
    Mr. Terry. Thank you very much. Yield back my 4 seconds.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair wants to apprise members that the staff has just 
informed me, or reminded me, rather, that there are 5 minutes 
under the committee rules for questioning, 2 minutes for 
opening statements and 5 minutes for questioning, and those who 
have gone before, if you require more--you are OK for now? All 
right. Well, thank you very much.
    The Chair now recognizes the gentlelady from California, 
Mrs. Matsui, for 5 minutes.
    Mrs. Matsui. Thank you, Mr. Chairman.
    Mr. Andres, the CPSC has estimated that 180 unintentional 
non-fire carbon monoxide poisoning deaths occurred in 2006 and 
were associated with consumer products. Of these deaths, 71 
percent took place in homes. The data also showed that carbon 
monoxide poisoning deaths are more likely to arise in homes 
with no functioning alarms. To reduce deaths, CPSC has 
attempted to reduce carbon monoxide levels in homes by 
examining the limitations and detection capabilities of low-
cost carbon monoxide alarms. Mr. Andres, I want to know how 
industry has worked with the CPSC and other stakeholders to 
develop voluntary standards to improve consumer product 
performance.
    Mr. Andres. Yes. In fact, as outlined in some of the ANSI 
protocols to develop a recognized standard, there is a 
technical committee that is formed. We refer to it as the 
standards technical pattern, and in fact, the Consumer Product 
Safety Commission oftentimes participates in technical 
discussion on the performance of carbon monoxide alarms, and I 
have personally attended a number of these technical panel 
reviews over the years, and if anybody were to look at the 
amendments that have been made towards UL 2034, you would see 
that the standard has evolved into a very robust-type standard. 
Some of the major changes that have been made toward the 
standard are, number one, a requirement to demonstrate whatever 
sensing technology you are employing that that technology be 
proven to be accurate, not just accurate on day one at the time 
that the Underwriters Laboratory engineering is going to test 
the product, but certainly accurate years down the line. We 
have at Kidde, for example, over 10 years of ongoing test data 
that is third-party witnessed by Underwriters Laboratories. At 
the same time, Underwriters Laboratories has imposed 
environmental tests so that sensing technology is proven to be 
accurate under high humidity extremes or low temperature 
extremes or high temperature extremes. The Consumer Product 
Safety Commission has participated in many of these technical 
discussions and they have also raised issues in the past about 
performance of these sensing technologies, brought those into 
industry so that we could all discuss it, and that has led to 
the evolution of much better sensing technology today.
    Mrs. Matsui. I think that many of us have been made aware, 
particularly some of the testimony here, about the tragedies 
that occurred, and I think some of us have experienced this 
historic storm that we had in February where many of us lost 
our power and our heat sources, and once again we were reminded 
about the dangers of carbon monoxide. And it is unfortunate 
that things like that have to happen for us to be reminded of 
that, and that is why, you know, I look at some of the data 
about the deaths and injuries that might occur. Do you believe 
that you are at a point where you don't need the stronger 
regulatory law? I mean, can we reduce more deaths or risks of 
deaths if we have a stronger regulatory law or reduce the risk 
of carbon monoxide as source?
    Mr. Andres. Alarms have evolved to a point where you can 
buy an excellent alarm for an $18 price tag that covers you for 
multiple sources of CO source. You know, we talked about 
generators but it is beyond generators. There are fireplaces, 
charcoal grills, attached garages with running cars, water 
heaters. I mean, for a $20 device being able to protect against 
all those individual sources, that is just a fantastic deal. I 
mean, the same time we look at what we are doing here today. I 
mean, this is National Poison Prevention Week. We are having a 
very good discussion on, you know, a very pertinent point, 
carbon monoxide. Anything we can do to raise awareness will 
naturally leave to saving additional lives, so we are going to 
raise the awareness to the American public. They are going to 
react to that, many of them, and purchase carbon monoxide 
alarms. What you are doing here today will help raise that 
awareness.
    Mrs. Matsui. And I just wanted to comment, I think that, 
you know, we are looking at these things sometimes in silos. We 
are looking at the alarms right now. But you mentioned the 
other aspects of it, you know, the generators and all of this 
that are really a greater part of it too. So in a certain 
sense, we have to address some of those concerns and how they 
might affect as being the source of this and so I think that 
you are right, it is absolutely important to do this but I also 
think that we need to look beyond this also because this is--
partly it is education but part of it is also the 
interconnectedness of all of this, and I think that is really 
the important thing. So with that, I yield back my time.
    Mr. Rush. The Chair recognizes now the gentlelady from 
Colorado, Ms. DeGette, for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman, and I want 
to give an official welcome to Dr. Lavonas, who is my 
constituent, and almost as importantly works for Denver Health, 
which this committee has heard me sing the praises of many, 
many times and does such a wonderful job not just with 
providing health care to folks but with some of these public 
health issues throughout our region. I want to welcome you, and 
Mr. Matheson and I both agreed that the entire panel provided 
excellent testimony and in particular you, Doctor.
    I just want to ask a couple of questions of the panel. The 
first one, as we know, the legislation provides for grants to 
States and localities to assist in certain activities related 
to preventing carbon monoxide poisoning. Dr. Lavonas, do you 
think that the grants are a helpful way to address this issue?
    Dr. Lavonas. Yes, I do. I have been through--this is my 
third time working with a governmental body on questions 
regarding carbon monoxide alarms, and so I have heard from my 
previous experience the barriers that they face. The biggest 
barrier that the State of Colorado faced was cost. It costs 
money to implement a standard, particularly if there is 
government-owned housing or government-imposed requirements 
that are going to require training. I think this bill does 
address that. I think that it may be helpful to allow the 
States to use this grant money in some additional ways as well 
as they see fit, for example, to allow the States to apply for 
grant money to put alarms in State-controlled housing or to 
fund alarm programs to provide subsidized alarms for low-income 
communities. But fundamentally, cost is a barrier. Every State 
in the Nation is struggling with their budget this year.
    Ms. DeGette. Yes, and also the local governments, many of 
which like Pitkin County which passed a law after that tragic 
death in the family that you described and many other counties, 
they are struggling with their budgets too. So what you are 
saying is, if we are going to do a grant system, be sure we 
give maximum flexibility so that that money can be used as 
wisely as possible.
    Dr. Lavonas. Yes, ma'am.
    Ms. DeGette. I wanted to ask you, one struck me during your 
testimony about the patient that you had who had brain injuries 
from carbon monoxide poisoning because we do hear, there are 
these tragic deaths. Mr. Devine has letters from people who 
survived. But my question is, we have the tragic deaths but we 
have many more people who have the poisoning who are somehow 
rescued. What are the long-term health impacts on folks who 
have survived from these poisoning episodes?
    Dr. Lavonas. These impacts can be significant. About three-
quarters of survivors do OK. About a quarter of survivors 
develop a brain injury that sometimes can get worse for a few 
days after the poisoning. The problems have to do with--
everybody is a little different but problems with 
concentration, problems with what is called executive 
processing like can I read a map, can I follow instructions, 
problems with short-term memory and problems with movement, 
tremors, similar to somebody with Parkinson's disease.
    Ms. DeGette. And do we have any sense annually about how 
many of these lasting brain injuries there are as a result of 
carbon monoxide poisoning?
    Dr. Lavonas. Well, we know there are--if you add the 
suicide and the unintentional exposures together, probably 
about 45,000 or 50,000 people who visit an emergency department 
for carbon monoxide poisoning each year. We know from good 
research that about a quarter of these, perhaps more, will 
develop a lasting brain injury.
    Ms. DeGette. Mr. Howell, I am wondering if you can tell me, 
as you know, the bill requires the CPSC to publish the existing 
voluntary Underwriters Laboratories 2034 standard for carbon 
monoxide alarms as a federal mandatory standard. Do you know 
how--can you tell us--I am sure you know how--the Underwriters 
Laboratories standard for carbon monoxide detectors was 
determined?
    Mr. Howell. If you are asking how the standard came to be, 
it certainly is a gathering of technical experts, industry, 
stakeholders and of course CPSC is represented. Performance 
standard design criteria is developed and it is balloted and 
approved by technical experts that work to develop these 
standards.
    Ms. DeGette. Do you think it will sufficiently protect the 
public?
    Mr. Howell. At this point our indications are that it is 
adequate to protect the public from the risk as we see it 
today.
    Ms. DeGette. OK. Just one last question. What proportion of 
carbon monoxide alarms currently available on the market 
conform to that standard?
    Mr. Howell. I do not have an exact number but it is our 
indication that there is substantial compliance with the UL 
2034 standards.
    Ms. DeGette. Mr. Devine, do you know?
    Mr. Devine. At this time we really understand that all the 
alarms that are available at retail establishments for 
consumers to purchase are compliant to the UL 2034 standard. 
Essentially all of the major retailers require us as 
manufacturers to have compliance to this standard today.
    Ms. DeGette. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentlelady.
    There was a question that came to mind, so the Chair will 
entertain any requests for one additional question from the 
members here, and the Chair recognizes himself for 1 minute.
    Can anybody provide any information on the threat of carbon 
monoxide poisoning in any other place other than homes? And I 
am particularly concerned or interested in any evidence of 
carbon monoxide poisoning in automobiles.
    Mr. Howell. Let me take the question as it began, which is 
any place outside of homes. CPSC actually has recorded 
incidents of people in outdoor environments, campers and tents, 
whether either through the use of generators or other fuel 
appliances that are used to either heat or cook have resulted 
in deaths to those from carbon monoxide poisoning.
    Mr. Rush. Anyone else?
    Mr. Devine. Yes, Mr. Chairman. In addition to outside of 
the residence, also concerning to us is the hotel-motel while 
people are traveling. There have been occurrences, unfortunate 
incidents where people have had carbon monoxide poisoning while 
they are in a hotel-motel from a variety of different sources 
as well.
    Mr. Rush. Thank you.
    The Chair recognizes the ranking member for 1 minute.
    Mr. Whitfield. Thank you.
    Mr. Howell, I wanted to ask you a question. You didn't come 
up to testify on H.R. 4805, the formaldehyde bill, which 
applies to hardwood, plywood, medium-density fiberboard and 
particleboard, all of which are products, and since you are the 
Consumer Product Safety Commission, are you familiar with this 
formaldehyde legislation?
    Mr. Howell. I am aware that it was there. I have not 
actually studied the legislation at this point.
    Mr. Whitfield. I was just thinking that these are products 
and you all deal with products and whether or not maybe your 
agency should have the jurisdiction over this formaldehyde 
issue, but we can talk about that later. I was just curious if 
you had looked at it. Thank you.
    Mr. Rush. The Chair wants to thank the witnesses. You have 
really been providing an invaluable service to this committee 
with your testimony and your answers to the questions. The 
Chair would like for you to know that we will keep the record 
open for 2 weeks, and if there are any members of the 
subcommittee who are not present who would like to submit 
questions to you in writing, would you please respond to those 
questions promptly within a 2-week period. Thank you so very 
much, and thank you for your time and your investment in the 
future of America. Thank you so much and God bless.
    The Chair wants to thank the members of the second panel 
for their participation in this hearing and wants to introduce 
the second panel of this hearing for a discussion on the other 
matter that is before this subcommittee, the bill introduced by 
Mrs. Matsui. The Chair wants to thank all the witnesses for 
your investment of your time in this hearing.
    The Chair wants to introduce beginning at his left Mr. 
James J. Jones, who is the deputy assistant administrator for 
the Office of Prevention, Pesticides and Toxic Substances of 
the U.S. EPA. Seated next to Mr. Jones is Mr. Tom Julia, who is 
the president of the Composite Panel Association. And seated 
next to Mr. Julia is Mr. Andy Counts, who is the CEO of the 
American Home Furnishings Alliance, and Mr. Don Ryan is sitting 
next to him, who is of the Sierra Club and a founding board 
member of the National Center for Healthy Housing. And next to 
Mr. Ryan is Dr. Melvin E. Andersen, who is the director of 
Program in Chemical Safety Sciences at The Hamner Institutes 
for Health Sciences. Again, we welcome all of the witnesses.
    It is the practice of this committee to swear in the 
witnesses, so will you please stand and raise your right hand?
    [Witnesses sworn.]
    Mr. Rush. Please let the record reflect that the witnesses 
have all answered in the affirmative.
    The Chair now recognizes Mr. Jones for 5 minutes for the 
purposes of an opening statement.

 TESTIMONY OF JAMES J. JONES, DEPUTY ASSISTANT ADMINISTRATOR, 
 OFFICE OF PREVENTION, PESTICIDES, AND TOXIC SUBSTANCES, U.S. 
  ENVIRONMENTAL PROTECTION AGENCY; TOM JULIA, PRESIDENT, THE 
 COMPOSITE PANEL ASSOCIATION; ANDY COUNTS, CEO, AMERICAN HOME 
  FURNISHINGS ALLIANCE; DON RYAN, SIERRA CLUB, FOUNDING BOARD 
MEMBER, THE NATIONAL CENTER FOR HEALTHY HOUSING; AND MELVIN E. 
ANDERSEN, CIH, PHD, DABT, DIRECTOR, PROGRAM IN CHEMICAL SAFETY 
      SCIENCES, THE HAMNER INSTITUTES FOR HEALTH SCIENCES

                  TESTIMONY OF JAMES J. JONES

    Mr. Jones. Thank you, Chairman Rush, Ranking Member 
Radanovich and members of the subcommittee. Thank you for the 
opportunity to speak with you today regarding the U.S. 
Environmental Protection Agency's efforts on formaldehyde and 
the potential legislative action in Congress.
    Formaldehyde is a widely used chemical and may be found 
both indoors and outdoors. It is used in building materials and 
household products and also produces a byproduct of combustion. 
In homes, the most significant sources of formaldehyde are 
likely to be pressed wood products made using adhesives that 
contain urea-formaldehyde resins.
    Inhalation of formaldehyde can cause irritation of the 
eyes, nose, throat and skin as well as inflammation and damage 
to the upper respiratory tract. Additionally, there is growing 
evidence that formaldehyde exposure may impact pulmonary 
function and increase respiratory symptoms, asthma and allergic 
sensitization in children. In 1989, EPA classified formaldehyde 
as a probable human carcinogen.
    EPA is currently engaged in a reassessment of the potential 
cancer and non-cancer risks of formaldehyde that will be 
entered into EPA's Integrated Risk Information, or IRIS 
program. As a result of this reassessment process, EPA is 
reexamining its conclusions regarding the cancer and non-cancer 
effects of formaldehyde. This assessment will be ready for 
external review soon. The agency has also asked the National 
Academy of Sciences to provide independent external scientific 
peer review, and EPA will offer opportunities for public 
comment on the underlying science.
    The recent focus of formaldehyde in the Office of 
Prevention, Pesticides, and Toxic Substances resulted from a 
March 2008 petition to adopt the California State regulation 
concerning emissions of formaldehyde from three types of 
composite wood products. They petitioned EPA to exercise its 
authority under TSCA section 6 to adopt and apply nationally 
the California formaldehyde emissions regulation for these 
composite wood products. In response, EPA announced on June 24, 
2008, that it was partially granting and partially denying the 
petition. While the agency denied the specifics of the petition 
request, EPA announced plans to issue an Advanced Notice of 
Proposed Rulemaking to initiate a proceeding to assist us in 
obtaining a better understanding of the available control 
technologies and approaches, industry practices and the 
implementation of the California regulation.
    The ANPR was issued on December 3, 2008, and describes 
EPA's initial steps in that investigation and requested comment 
information and data relating to formaldehyde emissions from 
pressed wood products.
    The challenge of regulating chemicals under our current 
TSCA authority is worth noting. As Congress moves toward TSCA 
reform legislation, we have stated in previous hearings that as 
a result of the legal and procedural requirements TSCA places 
on EPA to collect data, there are large, troubling gaps in the 
available data and state of knowledge of many widely used 
chemicals in commerce. Chemical producers are not required to 
provide EPA the data necessary to fully assess a chemical's 
risks. In cases such as formaldehyde where EPA has adequate 
data on a chemical and it wants to protect against well-known 
risks to human health and the environment, there are legal 
hurdles that prevent quick and effective regulatory action.
    In regards to formaldehyde, the agency noted in its 2008 
ANPR that EPA does not have sufficient information to evaluate 
whether the CARB standard would likely be the least burdensome 
alternative necessary to protect adequately against such risks. 
This finding illustrates the inherent difficulty the agency 
faces in regulating chemicals under TOSCA even for a chemical 
such as formaldehyde where data and information are available 
regarding its health effects.
    Restoring confidence in our chemical management system is a 
top priority for EPA and an environmental priority for the 
Obama Administration. This Administration's principles for how 
TSCA should be revised and modernized call for stronger and 
clearer authority for EPA to collect and act upon critical data 
regarding chemical risks. Under a reformed TSCA, EPA should 
have the necessary authority and tools to quickly require 
testing and obtain other information from manufacturers that is 
relevant to determining the safety of chemicals and should also 
have clear authority to take risk-management actions when 
chemicals do not meet safety standards.
    EPA currently anticipates being able to make a 
determination on whether to pursue regulatory action on 
formaldehyde in 2011. If we were to propose a new regulation at 
that time, a final rule could be anticipated 1 to 3 years later 
depending on the comments we receive and additional analysis 
and consultations which may be required in order to finalize.
    As this committee considers legislation on formaldehyde, we 
agree that formaldehyde is a hazardous chemical and support the 
goal of legislation in reducing the risks of formaldehyde in 
pressed wood products. Reducing formaldehyde emissions in 
pressed wood products should be an important public health 
goal. California has made a valuable contribution to 
formaldehyde emissions reductions through it standards and is 
providing a clear model for addressing the problem.
    We look forward to working with this committee as it moves 
forward to reduce exposure to formaldehyde from these products. 
It is our hope that Congress will also be able to act on TSCA 
reform since the Administration believes it is important to 
work together to quickly modernize and strengthen the tools 
available in TSCA.
    Thank you for the opportunity to present EPA's views, and I 
am happy to answer any questions the subcommittee may have.
    [The prepared statement of Mr. Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.019
    
    [GRAPHIC] [TIFF OMITTED] T6018A.020
    
    [GRAPHIC] [TIFF OMITTED] T6018A.021
    
    [GRAPHIC] [TIFF OMITTED] T6018A.022
    
    [GRAPHIC] [TIFF OMITTED] T6018A.023
    
    Mr. Rush. Mr. Julia, you are recognized for 5 minutes.

                     TESTIMONY OF TOM JULIA

    Mr. Julia. Thank you, Mr. Chairman, Ranking Member 
Radanovich, members of the subcommittee, and thank you in 
particular to Mrs. Matsui for taking the leadership to 
introduce this important piece of consumer legislation.
    I am Tom Julia, president of The Composite Panel 
Association, a not-for-profit association representing more 
than 90 percent of the North American production of 
particleboard, medium-density fiberboard and hardboard. We are 
representing manufacturers of two of the three products 
regulated under this legislation, and we are here to offer to 
our strong support.
    Composite panel products used in construction materials, 
furniture, cabinets and for hundreds of other uses are a major 
worldwide industry. In the United States alone, panel mills 
employ thousands of workers and the sale of our product affect 
hundreds of thousands of manufacturing jobs, typically in small 
rural communities throughout the Nation. We are among the 
greenest industries in the world, and most U.S.-made products 
use 100 percent recycled residual or post-consumer wood. CPA 
itself is a world leader in quality assurance, product testing 
and certification and sponsorship of voluntary industry 
standards.
    I am proud to say today that nearly 100 percent of U.S. 
production capacity of particleboard and MDF is compliant with 
the California standard phase I and in many cases phase II, the 
levels that would be required under this legislation. Our 
sister trade association, the Hardwood Plywood Veneer 
Association, represented in the audience today, can tell you a 
comparable story for hardwood plywood products, the other 
product regulated under this bill.
    None of this happened by accident. It took a long-term 
commitment to lower emission levels, a major and ongoing 
capital investment in new technology, and an early commitment 
to the California rule and to meeting its deadlines. We wish 
that everyone would share this strong commitment to product 
stewardship and lower formaldehyde emissions, especially some 
of those making products overseas that are bound for American 
markets. Fortunately, most of the U.S.-based trade associations 
representing offshore producers have strongly committed 
themselves to supporting this bill and responsible importers 
are meeting the CARB rule. But there is still too much product 
entering the U.S. market made by companies who don't 
participate in trade associations, who don't get their products 
tested and certified, who don't sell into California and who 
often sell low-priced goods to the most vulnerable of our 
citizens. These are the bad actors that H.R. 4805 will reach 
while at the same time ensuring a consistent standard of 
compliance and enforcement throughout the United States.
    By establishing national requirements, you will give the 
American public full confidence that panel producers are doing 
everything possible to minimize the environmental footprints of 
our products, that a rigorous federal standard stands behind 
these products and that compliance doesn't just happen some of 
the time, it happens all of the time. We submit to you that is 
good for public health, this is good for domestic jobs and this 
is good for the American consumer.
    We are here today at a rare moment in history when industry 
and environmentalists, labor and health care groups can come 
together and support a common result. This is also a day to 
think, as we heard earlier today, about the emergency housing 
units provided to victims of Hurricane Katrina and Hurricane 
Rita. Had there been a national emissions standards in place 
and third-party testing and certification to validate 
compliance, it is very possible there never would have been a 
FEMA trailer problem, at least one related to formaldehyde 
emissions from composite wood. And by passing this bill, you 
can make a statement that says we will never let it happen 
again.
    I cannot say enough about third-party testing and 
certification. Responsible industries around the world are 
embracing it and it indeed has become our industry's equivalent 
to what President Reagan called trust and verify. It is also 
the key to the success of this bill.
    In closing, I urge you to take what California has called 
the toughest production standard in the world and make it 
America's standard too. Earlier today there were some questions 
about preemption and the impact of this bill on the States, and 
I would be happy in my responses to questions to address those, 
Mr. Chairman, or at this time. Thank you so much.
    [The prepared statement of Mr. Julia follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.024
    
    [GRAPHIC] [TIFF OMITTED] T6018A.025
    
    [GRAPHIC] [TIFF OMITTED] T6018A.026
    
    [GRAPHIC] [TIFF OMITTED] T6018A.027
    
    [GRAPHIC] [TIFF OMITTED] T6018A.028
    
    [GRAPHIC] [TIFF OMITTED] T6018A.029
    
    Mr. Rush. Thank you.
    The Chair recognizes Mr. Counts for 5 minutes.

                    TESTIMONY OF ANDY COUNTS

    Mr. Counts. Good morning. I am Andy Counts, chief executive 
officer of the American Home Furnishings Alliance. I would like 
to thank Chairman Rush, Ranking Member Radanovich, members of 
the subcommittee for this opportunity to testify. I would 
especially like to thank Congresswoman Doris Matsui for her 
leadership along with Congressman Vern Ehlers for advancing 
this important legislation.
    The AHFA is the world's largest trade association, serving 
the home furnishings industry. Member companies comprise an 
extensive global network of manufacturers who produce home 
furnishings or component parts constructed of composite wood 
products.
    AHFA supports the regulation of formaldehyde emissions from 
composite wood products, and we support H.R. 4805. We believe 
that a national approach is crucial in order to avoid 
conflicting State standards and allow for the harmonized 
distribution of products and supplies.
    AHFA along with wood products industry, environmental, 
health and labor organizations worked for more than 7 years 
with the California Air Resources Board to establish 
formaldehyde emission limits for composite wood products. These 
new emission limits are the most stringent in the world. 
Outside these emissions limits, however, there are several 
aspects of the California rule that cannot be implemented 
nationally. H.R. 4805 provides EPA the platform and flexibility 
needed to address these issues and modify the California 
approach, providing a commonsense, pragmatic national 
regulation.
    Of critical importance will be the inclusion of adequate 
compliance timelines and sell-through provisions. Due to the 
unprecedented economic conditions of the last few years, 
inventory levels remain high. Unlike in California where 
noncompliant inventories could be moved to other markets, 
adequate sell-through provisions are needed nationally to 
accommodate increased inventories and slow inventory turns. We 
request a sell-through period of 36 months finished products 
following the compliance deadline for composite wood products.
    It is important to note that the California formaldehyde 
standard and the national standard proposed under H.R. 4805 
regulate emissions from composite wood products and not the 
finished products that contain composite wood components. In 
fact, the value-added steps associated with finished products 
such as lamination and finishing have been proven to lower 
emissions of composite wood components. EPA must focus 
compliance and enforcement where it belongs: at the point of 
manufacture and process control. The regulations should not 
contain any provisions for the testing of finished goods such 
as furniture or cabinets. If the raw board component parts are 
properly regulated, downstream users of these products will be 
required to purchase them and to only use or resell these safe 
products to consumers. This ensures the overall safety of the 
global supply chain and the citizens who purchase home 
furnishings.
    AFHA applauds the efforts of our global suppliers that have 
worked tirelessly to comply with the California standards. We 
stand ready to educate the industry on the new national 
standard and provide the tools necessary to ensure compliance 
on a global basis. We also look forward to working closely with 
EPA during the development of this regulation.
    Thank you for this opportunity, and I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Counts follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.030
    
    [GRAPHIC] [TIFF OMITTED] T6018A.031
    
    Mr. Rush. Mr. Ryan is recognized.

                     TESTIMONY OF DON RYAN

    Mr. Ryan. Thank you, Mr. Chairman, Mr. Radanovich and 
Representative Matsui. My name is Don Ryan. It is my pleasure 
to testify today in strong support of H.R. 4805. I testify on 
behalf of two organizations: the National Center for Healthy 
Housing and the Sierra Club. The National Center is dedicating 
to ensuring that all Americans' homes are healthy and safe 
through proven and practical steps. The National Center is 
concerned about formaldehyde because of the enormous body of 
scientific evidence documenting formaldehyde's human health 
risks. Formaldehyde is an irritant, an allergen, a cancer risk, 
and composite wood products are a significant source of 
exposure, and just as importantly, an opportunity to 
significantly reduce exposures.
    The Sierra Club is one of the Nation's oldest and largest 
environmental organizations. It is committed to protecting 
public health as well as natural resources. And it was the 
Sierra Club that first called the Nation's attention to the 
dangers of high formaldehyde levels in FEMA trailers after 
Hurricanes Katrina and Rita. The primary source was 
manufactured wood products with formaldehyde glue, most of 
which apparently came from overseas.
    The painful story of formaldehyde and FEMA trailers is not 
yet over as just last week the federal government announced the 
sale of 120,000 of these travel trailers. I am concerned about 
the sale at several levels. The trailers may pose formaldehyde 
hazards. They may pose other health hazards. Some of these 
trailers may come to be occupied as permanent homes, even 
though that is not their designed intent, and there is a chance 
the warning labels may be removed before the resale to future 
buyers. What I want to drive home is that all these health 
hazards, these headaches, these heartaches could have been 
completely avoided, and that is why H.R. 4805's enactment is so 
important.
    I want to applaud Representatives Matsui and Ehlers for 
introducing this bill. I want to thank this subcommittee for 
holding this hearing and moving it forward.
    I also want to take a minute to salute the staff of the 
California Air Resources Board because the opportunity before 
us today to advance public health across the Nation is due to 
their hard work over the past 7 years to carefully craft the 
standard that is protective, that is practical, that is 
enforceable. But there are limits to what one State can 
accomplish when it comes to a worldwide market for products 
such as composite wood products. As we have seen with other 
consumer products, with drywall, with dog food, with children's 
toys, ensuring compliance by overseas manufacturers is 
absolutely critical and often very difficult. The California 
formaldehyde standard is the toughest production standard in 
the world. The standard has already taken effect. The standard 
is already working. Manufacturers are already complying.
    So at the most basic level, what H.R. 4805 does is two 
things. It extends the California standard's public health 
protections across the country as quickly as possible, and 
number two, it strengthens enforcement to level the playing 
field so that unscrupulous manufacturers cannot undercut 
responsible manufacturers. So this bill is a giant step forward 
for public health. It has the support of environmental, health, 
labor and consumer advocates and this bill is a giant step 
forward for responsible manufacturers because it levels the 
playing field. It will create green jobs for American workers.
    And finally, I want to note this bill is a big win for the 
American taxpayer because it avoids the complexities and the 
clumsiness of TSCA by directing EPA to issue its regulation 
without delay.
    So I would urge this subcommittee's support of the bill. I 
think it deserves your bipartisan support. I hope it wins your 
unanimous support, and I ask each of you to urge the full 
Energy and Commerce Committee to recommend this bill's early 
approval by the full House.
    [The prepared statement of Mr. Ryan follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.032
    
    [GRAPHIC] [TIFF OMITTED] T6018A.033
    
    [GRAPHIC] [TIFF OMITTED] T6018A.034
    
    Mr. Rush. Thank you.
    Dr. Andersen, you are recognized for 5 minutes.

                TESTIMONY OF MELVIN E. ANDERSEN

    Mr. Andersen. Thank you, Mr. Chairman. Good morning. I am 
Dr. Mel Andersen, director, Program in Chemical Safety 
Sciences, The Hamner Institutes for Health Science.
    I completely applaud the legislation. I think it is 
important for the American people, and I am here actually to 
take objection with the scientific basis of the California risk 
assessment that has been used to support the emissions 
standards.
    My professional career spans 40 years and five or six 
employers. My primary area of expertise is pharmacokinetics, 
how chemicals get to target tissues in the body, what they do 
there. In 1998 I served as a peer reviewer for an alternative 
risk assessment other than the California risk assessment that 
was developed by an organization, the Chemical Industry 
Institute of Toxicology, peer reviewed in Canada. I was a peer 
reviewer for that process.
    The Hamner is the successor to CIIT. I have worked at The 
Hamner since 2002. Before that I was a professor of 
environmental health at Colorado State University in Fort 
Collins, Colorado. Over the past 5 years, I have conducted 
research at The Hamner funded by the Formaldehyde Council to 
understand the changes in genes and gene expression in the nose 
when rats are exposed to formaldehyde. More recently, we have 
been studying this area called pharmacokinetics of formaldehyde 
in the nose.
    I want to stress that today I am here neither representing 
the formaldehyde council nor The Hamner. I am here representing 
a 40-year practitioner in toxicology and risk assessment.
    You, me, all of us have substantial amounts of formaldehyde 
in every single cell in our body. The number actually is 12,000 
parts per billion. It is part of normal metabolism. We have to 
have it. Formaldehyde causes toxicity when inhaled 
concentrations increase the levels in the tissues in the front 
of the nose to cause toxicity, cell death, regeneration and 
ultimately cancer at high concentrations.
    Our studies show that at 100 parts per billion, there is no 
increase in the amount of formaldehyde in tissues in the nose 
compared to background levels, background physiological levels. 
But formaldehyde is a carcinogen, yes. It is a nasal irritant, 
yes. In trailers where people are closed, it has irritant 
properties. It could cause asthma. And we need to protect 
against it and this legislation is a good legislation to help 
us protect people who are in these trailers, people who live in 
all kinds of homes.
    My comments really come down to just two points. The 
California risk assessment is extremely conservative using what 
are now antiquated approaches from the 1970s. They have not 
been updated by a better understanding of the biology of 
formaldehyde, its effects on tissues or a better understanding 
of cancer biology now that we have moved into the 21st century. 
They are technologies that are quite old. The CIIT assessment 
that was done 10 years ago is still in some ways outdated. It 
is better. It actually predicts risks that are probably 2,000-
fold lower than estimated by the California risk assessment but 
it is still outdated. Neither one of them take account of the 
fact that there is a good bit of indigenous formaldehyde.
    I provided two visuals, one a table showing this comparison 
of the risks from what is an EPA risk assessment, almost 
equivalent to the California one, and one is the CIIT 
assessment. I provided a table that shows as a function of 
concentration different effects, different exposures going from 
5 to 10 parts per million in outdoor air to higher 
concentrations, and then ones in which we have irritancy, 300 
parts per billion, the threshold limit value of the American 
Conference of Government Industrial Hygienists, and then on to 
concentrations which are clearly toxic.
    The proposed legislation sets limits on emission rates from 
building products. I am an industrial hygienist. Among all the 
letters after my name, CIH is certified industrial hygienist. 
As a certified industrial hygienist, it makes good sense to me 
to limit off-gassing of formaldehyde from these products by 
good manufacturing processes and to protect people from 
irritation, from a likelihood of asthma and from respiratory 
distress. However, I am here today because I find it, in my 
professional judgment, I find it objectionable that this 
decision is being taken based on outdated biologically 
deficient risk assessment, an assessment that neglected a broad 
body of research on formaldehyde carcinogenicity, on 
formaldehyde toxicity, ignores the attributes of biochemistry 
of cellular formaldehyde, a physiological material in our 
bodies, and it creates the impression that formaldehyde at 
concentrations only several parts per billion poses a 
substantial, quantifiable cancer risk in people. That is the 
piece of the legislation that I find most worrisome that you 
are indirectly agreeing when you accept this--that levels of 
formaldehyde well below any that would cause any significant 
changes in formaldehyde in the body will cause cancer in some 
definable number of people in a population.
    This legislation should endorse the reduction in emissions, 
clearly. I applaud the legislation. I applaud the people who 
have brought this legislation to the committee. I wish it could 
be done without endorsing the questionable risk assessment from 
California that significantly overestimates the risks of 
inhaled formaldehyde, and I believe in public concerns about 
some particular end points, especially cancer.
    Thank you very much for this opportunity to provide this 
perspective on House 4805 and to visit a panel of this kind for 
the first time in my career. Thank you very much.
    [The prepared statement of Mr. Andersen follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.035
    
    [GRAPHIC] [TIFF OMITTED] T6018A.036
    
    [GRAPHIC] [TIFF OMITTED] T6018A.037
    
    [GRAPHIC] [TIFF OMITTED] T6018A.038
    
    [GRAPHIC] [TIFF OMITTED] T6018A.039
    
    [GRAPHIC] [TIFF OMITTED] T6018A.040
    
    Mr. Rush. Thank you very much, and I thank all the 
witnesses. The Chair recognizes himself for 5 minutes for the 
purposes of questioning the witnesses.
    There are a number of questions that I might raise, and I 
guess in consideration of the limited time that I have, I 
really want to focus on this proposed sale that you alluded to, 
Mr. Ryan and Mr. Counts and others. This sale of these FEMA 
trailers and mobile homes, is this a wise undertaking by the 
federal government and are these mobile homes and trailers 
safe, and what course of action do you recommend that the 
federal government consider? I want to ask Mr. Jones and Mr. 
Counts and Mr. Ryan this question.
    Mr. Jones. I don't feel it is appropriate for me as an EPA 
official to comment on FEMA, Homeland Security. We have briefed 
the officials from FEMA about our assessment and so they have 
awareness of how we view the risk associated with FEMA but it 
really, I think, is up to FEMA and Homeland Security to respond 
specifically to the appropriateness of their actions.
    Mr. Rush. Mr. Counts or any other--Mr. Ryan, Dr. Andersen, 
if you have any comments, I have 3 minutes.
    Mr. Ryan. I would note the FEMA trailers present a vexing 
problem. We certainly can't say they are safe. FEMA can't say 
they are safe or EPA or CDC. In fact, the trailers are being 
sold with a label, a cautionary label that is intended to warn 
future buyers. The trailers are not intended as permanent 
housing units but we have a housing crisis in this country and 
almost certainly some of them will come to be occupied and used 
as housing, and there is a concern in the resale of those 
homes, whether the warning label may fall through the cracks.
    Mr. Rush. Mr. Counts.
    Mr. Counts. I feel I wouldn't be qualified to respond on 
the FEMA trailers. Our members are not in the trailer business 
nor do they supply to that industry. So I will----
    Mr. Rush. Mr. Julia, Dr. Andersen raised some serious 
disagreements on concerns about the California standards, and 
what percentage of your membership are affected by the 
California standards?
    Mr. Julia. Mr. Chairman, it is fair to say that virtually 
the entire U.S. industry is affected by the California 
standards, and indeed we believe that even prior to California 
our industry was manufacturing using exceedingly low levels of 
formaldehyde and emissions levels are exceedingly low, and once 
perfected under phase II of California and under federal law 
will be truly de minimis standards. Moreover, the California 
rule as this federal bill does incentivizes industry to develop 
even lower, what are called ULEF and NAUF adhesive systems 
which indeed would do exactly what I believe public policy 
should do which would be to promote technological innovation 
and capital investment in lower-emitting technologies. But it 
is fair to say that the California regulation has become a de 
facto law of the land. It is indeed practiced almost throughout 
the United States by virtually every significant manufacturer 
or user of composite panel products. The problem with the 
California rule is that it is only enforceable in California.
    Mr. Rush. The Chair's time is expired. The Chair recognizes 
Mr. Radanovich.
    Mr. Radanovich. Thank you, Chairman Rush, and I appreciate 
the testimony of all the witnesses.
    Mr. Andersen, I am going to ask you a question. As I 
understand your testimony, your research in the weight of the 
current scientific evidence on formaldehyde shows that emission 
levels significantly higher than those permitted in California 
would not pose a health risk. Give me an idea of why you object 
to the standard set in California but also if you can give me 
an idea of the consequences of an emittance level that is set 
dramatically low.
    Mr. Andersen. I think the consequences from my point of 
view is that California law is based on causing cancer. It is 
based on an observation of cancer in rats at high doses when 
formaldehyde is corrosive. I mean, formaldehyde would cause 
cancer in you or I if we let ourselves be exposed to levels 
which were corrosive in our nose for our whole lifetime. We 
would walk away from it. But that is the basis. So they use 
that to make projections of very low-dose cancer risks, levels 
where the contribution of the formaldehyde is minuscule, absent 
to natural formaldehyde. That is the first. The second 
consequence from my opinion is the stress on trying to set the 
standard based on cancer. The FEMA trailer issue was one of 
irritation, respiratory distress and asthma. The levels should 
be based on asthma recognizing that formaldehyde doesn't pose a 
low-dose cancer risk. That is my professional opinion, which is 
shared by a large number of individuals.
    Mr. Radanovich. Does formaldehyde air out? If you open the 
trailers in Louisiana for a certain amount of time, will that 
level diminish?
    Mr. Andersen. It will diminish, depending on how long 
this--there is so much in the wood and it will come out for a 
period of time and the concentrations in the air will 
continually diminish.
    Mr. Radanovich. Thank you.
    Mr. Julia, I appreciate your testimony. Your association 
comes out with a statement saying that the California standard 
is way too high and yet in your testimony, you support the bill 
and the legislation that sets it at the California standard. As 
I understand it, your association doesn't agree with what you 
are saying there. Do you want to reconcile that?
    Mr. Julia. I am not sure what is inconsistent, Congressman.
    Mr. Radanovich. In March 1, 2002, in wood products, there 
was a belief that risk assessments upon which formaldehyde is 
being considered for regulation by the CARB in California are 
outdated and greatly overstate the potential for formaldehyde-
related health problems. This was in a testimony on March 1st 
under Wood and Wood Products by Chris Leffle, who is the senior 
vice president for Composite Products Association.
    Mr. Julia. That is absolutely correct. When this regulation 
was introduced at the very end of 2001, it called for a de 
facto ban on our products, a de facto deselection of wood 
products, which we felt would have been a dramatic overreach 
and was initially linked to a very great degree on what we 
believe were challengeable health findings. In the 7 years as 
that evolved, California through significant evaluation of 
economic conditions or economic performance of our industry, 
technical capabilities of our industry and a whole lot of 
public workshops, I then came to be persuaded that their 
regulation should be guided and I would have to therefore 
respectfully differ a little bit with the conclusion of my 
colleague on the panel here. California's decision, and indeed, 
I was in every one of those workshops, has been guided by 
technology, not by perceived cancer risk. Certainly they did 
that research and we have never said that--we have never 
acquiesced and said that we agree with those conclusions but 
their conclusions on the levels that they set in California 
were based on technological capability. It is, as they have 
characterized it, a ``technology-driven regulation'' and we 
think that is a very important distinction, one that is 
preserved in this legislation so it does not become a battle or 
a presumption that somehow current industry practices or 
current industry products present a health risk.
    Mr. Radanovich. Thank you, Mr. Julia.
    Mr. Andersen, that is kind of in conflict with what you 
were mentioning a little bit earlier, that it is a cancer risk 
assessment process and that your statements earlier mentioned 
being outdated and----
    Mr. Andersen. I think the cancer----
    Mr. Radanovich [continuing]. Less scientific. Go ahead and 
respond to that.
    Mr. Andersen. I think the cancer risk assessment from 1992 
fails to take into account a great deal of information about 
formaldehyde, its toxicity, its biology and it is outdated in 
that context. It is my understanding as I look through this 
legislation, and I have only been aware of it for a brief 
period of time in background, that the presumed risks from 
formaldehyde in the air were linked to this cancer model to 
develop emission rates.
    Mr. Radanovich. All right. Thank you very much, Mr. 
Chairman.
    Mr. Rush. The Chair recognizes the gentlelady from 
California, Mrs. Matsui, for 5 minutes.
    Mrs. Matsui. Thank you, Mr. Chairman.
    I have a question for Mr. Julia. H.R. 4085 would build upon 
the CARB rule by establishing national technology-based limits 
founded on the technological feasibility of the standards on 
formaldehyde emissions from most composite wood products. Now, 
industry has had a longstanding commitment to lowering emission 
levels, investing in technology and working collaboratively 
with regulatory authorities and public interest groups to set 
limits on emissions. Now, despite the strong commitments from 
domestic producers to voluntarily comply with the CARB rule, 
unacceptable levels of composite wood products are entering the 
U.S. markets without meeting our standards.
    Mr. Julia, what are your estimates for the kind of economic 
productivity that heightening formaldehyde emission standards 
for composite wood products would create?
    Mr. Julia. Well, when the State of California first 
introduced its regulation, I think I was quoted at one of the 
first public hearings as saying that this was going to be the 
law of unintended consequences, that if in fact it didn't 
address trade issues, and indeed care and ensure a level 
playing field for domestic production, that we would in fact 
have the law of unintended consequences, that in fact domestic 
producers would be required to comply with a potentially very 
onerous regulation whereas offshore producers would perhaps not 
have to comply with it, and indeed more of that product, the 
very product that California was concerned about, would enter 
the U.S. marketplace.
    I think what we have seen is a significant evolution over 7 
or 8 years, particularly in the offshore industry, which are 
represented by at least one individual here in this room such 
that they have come to make, I would say, a significant 
commitment among the responsible ones to comply with this 
regulation. I can tell you a story, a brief story of one of the 
largest home furnishings manufacturers in the world which does 
a tremendous amount of sourcing in Asia, and it has reduced 
over the past 2 to 3 years its number of suppliers by almost 75 
percent. It really becomes a survival of the fittest sort of 
the thing where they have taken a look at the ability of their 
sources to meet the expectations not only in California but 
throughout the United States of the stewardship that is 
required in the California rule and would be required here and 
they have made the internal decision that for a matter of 
public policy, for a matter of corporate policy and for a 
matter of liability, they will only be sourcing for companies 
who can verify indeed that they produce products to lower 
formaldehyde levels.
    And if I may, just in closing, return to the testing and 
certification part of this legislation. That is indeed the key 
because on all these issues, if you get to what level is the 
right level, what level is the lowest level, how do we enforce 
against imports, how do we enforce against domestic products, 
the secret to all of that, I believe, is to have third-party 
testing and certification whereby nobody is going to try to 
test every single table, every single chair, every single 
nightstand. That is physically impossible to do. Nobody is 
going to go into every store, nobody is going to go into every 
furniture mill whether for the federal government or the state 
of California or anybody else. That would be prohibitive. But 
you can verify all that through third-party testing and 
certification and create a chain of custody and a label where 
you can track every product all the way up to the testing 
agency that actually performed the initial testing.
    Mrs. Matsui. Mr. Julia, I take it you have no concerns 
about the implementation of the CARB rule nationwide at all?
    Mr. Julia. Concerns?
    Mrs. Matsui. Yes. No concerns about this implementation of 
the CARB rule nationwide?
    Mr. Julia. Well, I do have concerns. I think quite frankly 
there are 49 States in which you cannot enforce the CARB rule. 
The CARB rule--you know, I draw my analogy, the earlier 
comments today about carbon monoxide. Like Congressman Gingrey, 
I have a personal experience where my daughter was exposed to 
carbon monoxide poisoning at Virginia Tech 2\1/2\ years ago and 
nearly died, and I understand that in the State of Virginia we 
have no regulation of carbon monoxide. I understand that in the 
State of Maryland there is a very significant regulation on 
carbon monoxide detectors. The ability to simply say that 
because you have a rule in California which industry is 
embracing that that somehow solves the problem, I would submit 
to you, Congresswoman, that it does not solve the problem 
because you don't have a patchwork of different States doing 
things. In fact, you have nobody else doing anything. There is 
not a single State that is able to enforce that rule.
    Mrs. Matsui. That is why we are here today in actuality. So 
I don't have much time so I would yield back until--unless we 
have further time later on?
    Mr. Rush. The Chair will consider that.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. Just a few questions, 
first for Mr. Julia.
    You had stated that if Congress directs the EPA to 
establish a federal standard based on California's parameters, 
this will only help ensure that other States are not tempted to 
initiate a rule of their own, and so I guess what I want to 
know is, do you know where specifically in the bill are other 
States prevented from passing different laws and regulations?
    Mr. Julia. Congressman, they are not. There is nothing in 
this bill that calls for federal preemption, and obviously that 
has been an issue of concern to a lot of folks. We would say 
perhaps in a typical situation, federal preemption is something 
we would support. This is a unique circumstance in which you 
have a State regulation where there has never been a federal 
regulation, there has never been any other State regulation, 
there is no other State that we are aware of thinking about a 
regulation, that California spent an awful lot of time working 
on and indeed a regulation they thought they would take a year 
or two to do. It took them 7 years to do, largely because they 
had a lot of input from stakeholders.
    Mr. Scalise. And it hasn't been fully implemented.
    Mr. Julia. It is in the process of being implemented. By 
the time this federal schedule kicks in, it will be fully 
implemented other than the sell-through periods of it.
    We believe that because of the unique situation here and 
because of the difficulty of reaching accommodation within the 
Congress on this issue of preemption or not preemption, if you 
take a look at the particular facts and circumstances that 
really make this situation unique, you have a rule that the 
regulatory community, you have a rule that all of the industry 
stakeholders throughout the supply chain have embraced, that 
the environmental community, health care and labor community 
have embraced. We would argue that, you know, there is--I would 
pose the question, the rhetorical question, where else would 
California or any other State go at this point if the federal 
government stepped in and said we are going to take that model, 
we are going to make it apply to the entire United States. 
Essentially I would say problem solved. There is really no 
other place for a State agency, California included, to go at 
that point in terms of regulating our products, and that is 
certainly our hope and intention.
    Mr. Scalise. Mr. Counts, you had stated that ``We believe 
that a national approach is crucial in order to avoid 
conflicting State standards and allow for the harmonized 
distribution of products and supplies.'' Yet of course, this 
legislation doesn't do anything to stop other States from 
enacting different or conflicting regulations. Would you be 
concerned if other States enacted different laws or 
regulations?
    Mr. Counts. It is certainly a concern. Any time you have to 
create different products for your supply chain in different 
States, it would be very cost prohibitive. It is our thought 
that this is the most stringent standard in the world and there 
is no incentive for other States to follow and develop their 
own formaldehyde standard if we have a national standard that 
is in place.
    Mr. Scalise. Thank you. I yield back.
    Mr. Rush. The Chair wants to announce that we will have 
additional questions of the witnesses. The Chair recognizes 
himself for up to 3 minutes and the Chair will allow 3 minutes 
for each member to ask additional questions.
    I want to clarify something for the record. In your written 
statement, Mr. Julia characterized the legislation as not 
giving EPA the ability to establish emissions limits that are 
different from those set by California. Mr. Jones, doesn't the 
legislation permit EPA to set formaldehyde standards at a given 
level after the initial rulemaking required by the bill?
    Mr. Jones. Chairman Rush, the bill initially requires the 
agency to set formaldehyde standards that are the functional 
equivalent of the CARB standard. That is what the provision 
itself does. That wouldn't take away EPA's existing authorities 
under TSCA section 6 to regulate formaldehyde if it could make 
the findings required under section 6. So that authority would 
remain intact despite implementation of the bill that is before 
the Congress right now.
    Mr. Rush. The Chair recognizes the ranking member for 3 
minutes.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Mr. Julia, I recognize the national standard sounds good. I 
recognize your industry's concern about the bad players on 
composite wood. But does the industry also have a concern about 
a standard that is set unnecessarily low as it relates to the 
cost of the product that you are trying to produce?
    Mr. Julia. We absolutely would have such a concern, and at 
very many of the workshops in California this is exactly the 
argument that we made because if you look at the record, the 
initial proposals coming out of California were indeed very 
different than what ended up being the California rule and we 
felt that over a period of years and education and working 
cooperatively with the staff of the California Air Resources 
Board, they came to appreciate the technological capability of 
the industry, the curve that we have been on of lowering, 
lowering, lowering our emission levels. We have never said 
either prior to the California rule or since then that anything 
that we make is in any way, shape or form dangerous to public 
health. We have never addressed in those hearings that issue of 
the perceived risk.
    We believe it is a legitimate inquiry but we don't think it 
bears on the issue here in that the levels that we are talking 
about in this legislation are so low we don't believe that they 
rise to the occasion of asking the health concerns and the 
exposure concerns that some parties would like to bring to the 
table.
    Mr. Radanovich. Yet Mr. Andersen, your conviction is pretty 
firm that the standard could be 10 times higher and not pose a 
risk.
    Mr. Andersen. I believe that, but there is another 
significant concern I have, this idea that we are going to be 
conservative based on cancer and then talk about numbers of 
cancers people will have. I think this is a disservice to 
public health. It is a disservice to my neighbors, who only 
hear that this can cause cancer when it is not a significant 
carcinogen. It needs to be regulated based on the right 
reasons, and these regulations and assessments need to take in 
the body of information. I guess you are hearing a purist here 
that we have to do this for the right reason, and we shouldn't 
be scaring people. Right now we scare people with these 
conservative estimates that say you are going to have cancer. 
One in a million will have cancer. All people hear is, you will 
have cancer. And especially for things that aren't legitimate 
carcinogens at realistic human exposure levels. This is 
terrible public health policy. That is my professional 
judgment.
    Mr. Radanovich. Thank you, Mr. Andersen.
    Thank you, Mr. Chairman.
    Mr. Rush. Mrs. Matsui is recognized for 3 minutes.
    Mrs. Matsui. Thank you, Mr. Chairman.
    I have a question for Mr. Counts. You know, we understand 
that this has been a long process and I think it has been 
addressed before--at the beginning of the process there was 
wide disagreement but through the process, I guess took about 7 
years or so, there became a cooperative effort here between 
industry, the regulatory authorities and the public interest 
groups. And I think that is something that you have to look at, 
the fact that this wasn't done overnight and it really took 
people working together. But after years of review and 
rulemaking, CARB finalized the rules establishing these 
standards, the first phase of which went into effect on January 
1, 2009. Now, we know H.R. 4085 will apply these standards 
nationwide. Now, Mr. Counts, do you believe that manufacturers 
of composite wood products outside the United States will be 
able to comply with this proposed standard?
    Mr. Counts. I am confident that if they are given the 
appropriate compliance times and sell-through provisions that 
they will be able to comply. They have had to comply with 
stringent European and Japanese standards for several years 
now. The biggest hurdle with California was a brand-new testing 
requirement that international labs were not familiar with, but 
they are getting up to speed on that and compliance is coming 
along very aggressively. So I am confident that on a national 
basis, given the proper timeline, they can comply.
    Mrs. Matsui. Does AHFA anticipate any issues maintaining 
adequate supply levels once the regulation is promulgated?
    Mr. Counts. Well, the United States is the largest market 
for home furnishings in the world, and this is the most 
stringent standard in the world, so as we get to phase II of 
the California levels on a national basis, there is going to be 
some trial and error from our panel suppliers to make sure that 
they are complying. Unless the economy improves greatly, there 
is going to be a lot of inventory out there that is not 
compliant. We have to make sure we have adequate time to sell 
through all that product and work through the kinks but 
hopefully that will not be a major issue.
    Mrs. Matsui. And what steps has industry generally and AFHA 
taken to reduce formaldehyde emissions over the years?
    Mr. Counts. Well, we have several members that distribute 
nationally and they are embracing the California standard on a 
national level. We have some members that do not sell in 
California and they are finding it harder and harder to find 
panel that would not be compliant with California. So we are 
instructing them that the national standard is very likely and 
they need to move forward in that direction, and we are 
providing education and tools to make that happen.
    Mrs. Matsui. Thank you, and I yield back.
    Mr. Rush. Mr. Scalise.
    Mr. Scalise. Thanks, Mr. Chairman.
    A couple of questions for Mr. Jones. Some of the panelists 
lament the perceived length of a section 6A rulemaking process. 
If in attempting to apply the CARB standard, if EPA used the 
quality control order provisions in section 6B instead, are 
there such concerns?
    Mr. Jones. Thank you, Mr. Scalise. Section 6B under TSCA 
allows the agency to do facility-by-facility regulation. For 
some industries where there may be two facilities, it might be 
more expeditious to go in that manner. In the case of 
formaldehyde in pressed wood, I believe there are hundreds of 
facilities and so it may actually be longer using 6B going 
facility by facility than just having a national standard under 
6A.
    Mr. Scalise. It seems to me that the major issue is 
imports. What can EPA do under all the existing legal 
authorities to address the issue of wood products with higher 
formaldehyde levels that are coming into our country from other 
nations?
    Mr. Jones. So if there were a federal regulation either 
because we acted under 6A or this bill became law, it would 
apply to imports.
    Mr. Scalise. But what can you do under your current legal 
authority? Are there more things you can be doing right now to 
address those imports that are coming in from other countries 
that have higher levels of formaldehyde?
    Mr. Jones. We would have to have a regulation in place, 
either one that we initiated or that was initiated because this 
bill became law before we could do anything related to imports, 
and right now there is not a federal regulation----
    Mr. Scalise. Clean Air doesn't give any kind of ability to 
you?
    Mr. Jones. I don't believe that a hazardous air pollutant 
regulation would have any ability to influence imports, but 
that is something we can confirm.
    Mr. Scalise. All right. Thanks. I yield back.
    Mr. Rush. The Chair will recognize himself for just a 
couple more questions. Any other member who has additional 
questions, you will be recognized.
    Mr. Jones, if EPA were to set different standards in the 
future, they would have to be issued under TSCA. Is that 
correct?
    Mr. Jones. That is correct, Chairman Rush.
    Mr. Rush. But EPA has found it exceptionally difficult, if 
not impossible, to use that statute to regulate chemicals like 
formaldehyde. Would you agree that the inherent limitations of 
TSCA raise serious legal obstacles for EPA on this or any other 
issue?
    Mr. Jones. I would agree with that. The agency is pursuing 
a formaldehyde assessment that may well lead to a regulation 
but it is going to be very difficult and tricky for us to get 
over the hurdle of least burdensome, the potential permutations 
that you need to analyze before you could be affirmative in 
your determination that you picked the least burdensome. It has 
proven to be very difficult for the agency. And so we are 
probably 3 to 4 years away from having a formaldehyde 
regulation in place but we are going to try to work with the 
existing statute to see what we can do.
    Mr. Rush. Mr. Ryan, do you have any comments on this issue 
that I raise?
    Mr. Ryan. I would just endorse Mr. Jones' comments in terms 
of TSCA authority and the clumsiness of TSCA in getting to an 
early solution to the public health opportunity at hand.
    Mr. Rush. Thank you very much.
    The Chair thanks the witnesses, all of you. You have been 
very sacrificial in terms of your time and we really appreciate 
it. The Chair wants to thank the members who were present and 
those who have remained present. The Chair wants to note that 
we will have hearings of this type in the future, and now the 
Chair announces that the committee is hereby adjourned.
    [Whereupon, at 12:45 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T6018A.041
    
    [GRAPHIC] [TIFF OMITTED] T6018A.042
    
    [GRAPHIC] [TIFF OMITTED] T6018A.043
    
    [GRAPHIC] [TIFF OMITTED] T6018A.044
    
    [GRAPHIC] [TIFF OMITTED] T6018A.045
    
    [GRAPHIC] [TIFF OMITTED] T6018A.046
    
    [GRAPHIC] [TIFF OMITTED] T6018A.047
    
    [GRAPHIC] [TIFF OMITTED] T6018A.048
    
    [GRAPHIC] [TIFF OMITTED] T6018A.049
    
    [GRAPHIC] [TIFF OMITTED] T6018A.050
    
    [GRAPHIC] [TIFF OMITTED] T6018A.051
    
    [GRAPHIC] [TIFF OMITTED] T6018A.052
    
    [GRAPHIC] [TIFF OMITTED] T6018A.053
    
    [GRAPHIC] [TIFF OMITTED] T6018A.054
    
    [GRAPHIC] [TIFF OMITTED] T6018A.055
    
    [GRAPHIC] [TIFF OMITTED] T6018A.056
    
    [GRAPHIC] [TIFF OMITTED] T6018A.057
    
    [GRAPHIC] [TIFF OMITTED] T6018A.058
    
    [GRAPHIC] [TIFF OMITTED] T6018A.059
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
